<html>
<title> - H.O.P.E. FOR THE FUTURE: HELPING OUR PEOPLE ENGAGE TO PROTECT OUR YOUTH</title>
<body><pre>[Senate Hearing 112-511]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-511
 
H.O.P.E. FOR THE FUTURE: HELPING OUR PEOPLE ENGAGE TO PROTECT OUR YOUTH

=======================================================================


                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2011

                               __________

         Printed for the use of the Committee on Indian Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
74-709                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Field hearing held on October 22, 2011...........................     1
Statement of Senator Murkowski...................................     1

                               Witnesses

Baldwin, Teressa ''Tessa'', Youth Member, Alaska State Suicide 
  Prevention Council; Founder, Hope4Alaska Project...............    48
    Prepared statement...........................................    49
Casto, L. Diane, MPA, Prevention Manager, Division of Behavioral 
  Health, Alaska Department of Health and Social Services........     9
    Prepared statement...........................................    12
Gregory, Megan, Community Project Coordinator, Southeast Alaska 
  Regional Health Consortium; Board Member, Center for Native 
  American Youth.................................................    33
    Prepared statement...........................................    36
Mala, Ted, Physician/Director, Tribal Relations and Traditional 
  Healing, Alaska Native Medical Center..........................    30
    Prepared statement...........................................    31
McKeon Richard T., Ph.D., Lead Public Health Advisor, Suicide 
  Prevention Team, Substance Abuse and Mental Health Services 
  Administration, U.S, Department of Health and Human Services...     3
    Prepared statement...........................................     5
Peter, Evon, Director, Maniilaq Wellness Program.................    39
    Prepared statement...........................................    43
Smith, H. Sally, Secretary/Alaska Area Representative, National 
  Indian Health Board; Chair, Board of Directors, Bristol Bay 
  Area Health Corporation........................................    15
    Prepared statement...........................................    17

                                Appendix

Hawk, Hon. Larry Echo, Assistant Secretary for Indian Affairs, 
  U.S. Department of the Interior, prepared statement............    57


H.O.P.E. FOR THE FUTURE: HELPING OUR PEOPLE ENGAGE TO PROTECT OUR YOUTH

                              ----------                              


                       SATURDAY, OCTOBER 22, 2011


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                     Anchorage, AK.
    The Committee met, pursuant to notice, at 1 o'clock p.m. at 
the Dena'ina Civic and Convention Center, Anchorage, AK, Hon. 
Lisa Murkowski, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. We will open this Field Hearing of the 
Senate Indian Affairs Committee here in Anchorage, Alaska, at 
the Alaska Federation of Natives Annual Convention. I welcome 
all of you to this field hearing today. It is somewhat unusual 
to be holding a Committee hearing outside of Washington, but I 
think when we, in Congress, come to you to, not only hear 
directly, but also to be able to take your comments, your 
concerns, the issues back to Washington, D.C. is important and 
also to hear testimony from those at the Federal level, the 
state level, who have come to testify.
    We had hoped that we would have Larry Echo Hawk be with us 
this afternoon. I have spoken with him. He had to send his 
regrets. He's attending the memorial service for Elouise 
Cobell, who as many of you know, truly committed her life these 
past few years to resolving a longstanding litigation that 
involved America's First People, so he is not able to be with 
us today.
    I do appreciate those who have traveled to join us and 
recognize the commitment that they have made to this issue is 
extraordinarily important and we recognize that. I also want to 
recognize the Chairman of the Indian Affairs Committee, 
Chairman Akaka and the Vice Chairman, Senator Barrasso. I'd 
like to thank their staff and mine for organizing this field 
hearing and for bringing together a group of leaders who are 
committed and very dedicated on the issue.
    I'm not going to spend a lot of time talking about the 
rates of suicide, the statistics that we all know here in 
Alaska, because this is not about statistics. This is about 
lives. This is about families. This is about communities and 
the devastation that comes to us all when our young people, 
when our friends, when our neighbors, when our children, when 
our family members give up and take that last and final step. 
We have had testimony in the Senate Indian Affairs Committee on 
the issue of suicide and one of the most recent hearings was 
discussion about the scientific research that has linked 
childhood trauma to the higher rates of suicide amongst our 
young people and today, we're going to examine some of these 
linkages, these potential linkages, discuss what programs are 
working in our communities so that we can work to try to 
prevent this unnecessary and very deeply troubling loss of 
life.
    If we are to be successful in this fight against suicide, I 
think it's imperative, really imperative that we analyze, we 
begin to address some of the underlying root causes of the 
problem, whether it's historical trauma, whether it's 
witnessing acts of violence, suffering childhood abuse, as well 
as losing connection with traditional culture. We need to 
understand what has come about that, again, leads in a loss of 
hope.
    I convened a roundtable in Bethel with Tribal and community 
and agency officials. This was last year. We discussed the 
issue of Native youth suicide, but most importantly at that 
event was the contribution, what we heard from the young people 
who had attended, very courageous young men and women, who told 
very personal stories about how suicide had impacted their 
lives and it was hard. It was as hard as anything that I have 
heard.
    To watch those young people, who had such courage, take 
their turn at the microphone and some were not able to complete 
their stories. Some were not able to start their stories. Some 
stopped halfway through and we all held our breath for minutes 
while they tried to compose themselves to share what they knew 
needed to be shared, because if we don't share it, if we don't 
talk about it, we can never deal with it and the strength and 
the courage of those young people, I will never forget that and 
today's hearing is a bit more formal. You'll notice that I 
changed the furniture when I came in because I didn't want our 
witnesses to have their backs to you. In order to solve this 
problem, not only do they need to be looking at you, speaking 
with you, but we all need to be wrapping a circle together to 
resolve this issue.
    With this hearing, we'll have two panels; Federal, state, 
local. We will have some young people, but it really will not 
be the informal opportunity where we have to do more sharing. 
That will come this afternoon between 3 and 5 o'clock, where we 
have a dialog, an opportunity for a sharing of these issues and 
so it may be a long afternoon, but I think it's exceptionally 
important that we take the time in this block of time this 
afternoon between now and the conclusion of this hearing, where 
only invited witnesses will be welcomed to the table to go on 
the record and then this afternoon, beginning at 3 o'clock, we 
will have the dialog, where we will hear from, hopefully, so 
many more and gain that participation.
    I want to invite to the table now, the members of our first 
panel and I will give introductions and then we will have five-
minute testimony from each and I will have an opportunity to 
ask questions of the panelists and then we will move to the 
second panel. So that will be how the afternoon proceeds for 
this hearing, and again, for those of you who want to 
participate in the larger forum or the more informal forum, 
that will begin here in this room at 3 o'clock. Are we here? 
This room at 3 o'clock. With that, I would invite Sally Smith, 
Diane Casto, and Richard McKeon to join me.
    It is my pleasure to invite before the Indian Affairs 
Committee three distinguished panelists; Richard McKeon, who is 
a doctor. He's a Chief, Suicide Prevention Branch for the 
Center for Mental Health Service, Substance Abuse and Mental 
Health Service Administration. We know it around here as 
SAMHSA, Dr. McKeon, we're pleased to have you here today and 
recognize that you have traveled a long way to be with us, we 
appreciate your attendance and what you will be able to 
provide.
    We also have Ms. Diane Casto. She is with the Alaska 
Department of Health and Social Services in Juneau, the Section 
Manager for Prevention and Early Intervention, and of course, 
Sally Smith, a long-time friend of mine, frequent traveler with 
me back and forth between here and Washington, D.C. Sally is 
the Secretary and Alaska Area Representative of the National 
Indian Health Board and Chair of the Board of Directors for 
Bristol Bay Area Health Corporation. What I'd like is that if 
we can begin with you, Dr. McKeon, and just go down the row 
here and at the conclusion of the comments from the three of 
you, I will have questions that we will direct. Thank you.

   STATEMENT OF RICHARD T. McKEON Ph.D., LEAD PUBLIC HEALTH 
 ADVISOR, SUICIDE PREVENTION TEAM, SUBSTANCE ABUSE AND MENTAL 
 HEALTH SERVICES ADMINISTRATION, U.S, DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Dr. McKeon. Thank you, Senator Murkowski. It's an honor and 
privilege to be here with all of you. I serve as the lead on 
suicide prevention at the Substance Abuse and Mental Health 
Services Administration within the U.S. Department of Health 
and Human Services.
    I'm pleased to testify today alongside my colleagues from 
the Alaska Department of Health and Social Services, the 
National Indian Healthcare Board and Alaska Native leaders, as 
well as Alaska Native youth.
    The problem of suicide in Alaska Native communities is a 
shared and deeply important concern and efforts to reduce 
suicide and suicide attempts among Alaska Native youth and 
young adults must be a shared effort.
    Today, I will inform you regarding some of the efforts 
SAMHSA is taking to reduce suicide and suicide attempts in 
Alaska Native communities, both through SAMHSA-led programs, as 
well as work we conduct in conjunction with other Federal, 
State, and Tribal partners.
    As you know all too well, the rate of suicide among 
American Indian and Alaska Native individuals is much higher 
than the national average. In 2008, suicide was the second 
leading cause of death for American Indian and Alaska Native 
youth aged 10 to 24, with rates of suicide more than twice as 
high for those in the age range of age 15 to 24 compared to the 
national average.
    Injuries and violence account for 75 percent of all deaths 
among Native Americans ages one to 19. Overall, according to 
unpublished Indian Health Service data, suicide mortality is 73 
percent greater in American Indian and Alaska Native 
populations in IHS service areas compared to the general U.S. 
population. SAMHSA's number one strategic initiative is 
Prevention of Substance Abuse and Mental Illness, and included 
in this initiative is the prevention of suicide and suicide 
attempts. In line with this, SAMHSA is addressing Alaska Native 
youth suicide through a range of efforts, including the 
National Action Alliance for Suicide Prevention, a proposed 
Tribal Behavioral Health formula grant program, grants to 
Alaska Native Tribes, and villages through the Garrett Lee 
Smith Memorial Act youth suicide prevention program, 
implementation of the Indian Health Care Improvement law, 
through our Native Aspirations program, through technical 
assistance provided by the Suicide Prevention Resource Center 
and through 24/7 crisis support through the National Suicide 
Prevention Lifeline. In addition, there's a recently signed 
memorandum of agreement between HHS, the Department of Justice 
and the Department of the Interior as required by the Tribal 
Law and Order Act, and SAMHSA has recently included requests 
that states engage in Tribal consultation as part of their plan 
submitted in conjunction with the new Uniform Mental Health and 
Substance Abuse Block Grant Application.
    In addition, the Alaska Area Action Summit for Suicide 
Prevention will take place here in Anchorage next week. The 
summit is supported by SAMHSA, the Department of the Interior's 
Bureau of Indian Affairs and Bureau of Indian Education and the 
Indian Health Service.
    The National Action Alliance for Suicide Prevention was 
launched in 2010 by U.S. Department of Health and Human 
Services' Secretary, Kathleen Sebelius and former Defense 
Secretary, Robert Gates. The National Action Alliance has a 
private sector Co-Chair, former U.S. Senator Gordon Smith, and 
a public sector Co-Chair, the United States Army Secretary, 
John McHugh.
    Members of the National Action Alliance include, but are 
not limited to, SAMHSA Administrator Hyde, Mr. Echo Hawk, 
National Indian Youth Leadership Project Executive Director, 
McClellan Hall. An American Indian/Alaska Native task force has 
helped developed the agendas and strategies for the National 
Suicide Prevention Summit and the Alaska Area Action Summit for 
Suicide Prevention to take place this coming week. The 
President's fiscal year 2012 budget for SAMHSA proposed a new 
grant program entitled, Behavioral Health--Tribal Prevention 
Grants, which is intended to increase SAMHSA efficacy in 
working with Tribes and Tribal entities. This would represent a 
significant advance in the nation's approach to substance abuse 
and suicide prevention, based on recognition of behavioral 
health as a critical part of overall health.
    The program would focus on the prevention of alcohol abuse, 
substance abuse, and suicide in the 565 federally recognized 
Tribes. SAMHSA would work in consultation with Tribes and 
Alaska Native villages establishing a coordinated mental health 
and substance abuse effort for all of the federally recognized 
Tribes and work closely with American Indian/Alaska Native 
leaders to develop a comprehensive process to identify and 
address these most serious issues in our Tribal communities.
    Between 2005 and 2010, 19 Tribes and Tribal entities have 
received multiple grants through the Garrett Lee Smith Memorial 
Act to address suicide prevention among Tribal youth and 21 
additional Tribal grants started this year. This number 
represents 39 percent of the total state and Tribal youth 
suicide prevention grants provided under the Garrett Lee Smith 
Memorial Act. These grants provide funds to Tribes and villages 
to help implement a Tribe or a village with a suicide 
prevention plan and net work.
    In September, Secretary Sebelius announced 52.9 million in 
new grant awards to states and Tribes through youth suicide 
prevention programs during a visit to the Tanana Chiefs 
Conference in Fairbanks. The grants support efforts to prevent 
suicide by bringing together public and private sector 
organizations that touch the lives of young people and putting 
into place a network of services that can help in a time of 
crisis.
    Fiscal year 2012 Alaska grantees include, Kawerak, 
Incorporated, the Tanana Chiefs Conference, the Southeast 
Alaska Regional Health consortium, the Bristol Bay Area Health 
Corporation, and Southcentral Foundation. Also, SAMHSA awarded 
a campus suicide prevention grant to the University of Alaska 
at Anchorage.
    Thank you, Senator, for the opportunity to share with you 
the efforts SAMHSA is undertaking with respect to Alaska Native 
and American Indian youth suicide prevention, as well as other 
efforts related to Tribal behavioral health issues. I would be 
pleased to answer any questions you may have.
    [The prepared statement of Mr. McKeon follows:]

   Prepared Statement of Richard T. McKeon Ph.D., Lead Public Health 
  Advisor, Suicide Prevention Team, Substance Abuse and Mental Health 
 Services Administration, U.S, Department of Health and Human Services
    Chairman Akaka, Ranking Member Barrasso and Senator Murkowski, 
thank you for inviting me to testify at this important hearing on 
protecting Alaska Native (AN) youth. I am Dr. Richard McKeon and I 
serve as the lead Public Health Advisor on suicide prevention at the 
Substance Abuse and Mental Health Services Administration (SAMHSA) 
within the U.S. Department of Health and Human Services (HHS). The 
problem of suicide among the American Indian (AI) and AN population is 
a shared concern and efforts to reduce suicide and suicide attempts 
among AI/AN youth must be a shared effort. The shared effort includes 
ensuring linkages between behavioral and physical health, education, 
social services, parents, siblings, community leaders and many others.
    SAMHSA has played an integral role in the nation's efforts to 
reduce suicide among the AN community. Today, I will share with you 
some of the efforts SAMHSA is undertaking to reduce suicide and suicide 
attempts in the AI/AN population both through SAMHSA-led programs, as 
well as work we conduct in conjunction with other Federal, State, and 
Tribal partners. As you know all too well, the rate of suicide among 
AI/AN individuals is higher than the national average. In 2008, suicide 
was the second leading cause of death for AI/AN youth aged 10-24 with 
rates of suicide significantly higher for AI/AN youth aged 15-24 ( 
22.95 per 100,000) than for the national average (10.01 per 100,000) 
(CDC, 2011.) Injuries and violence account for 75 percent of all deaths 
among Native Americans ages 1 to 19 (Wallace, 2000). Overall, according 
to unpublished Indian Health Service (IHS) data, suicide mortality is 
73 percent greater in AI/AN populations in IHS service areas compared 
to the general U.S. population.
    SAMHSA's number one strategic initiative is Prevention of Substance 
Abuse and Mental Illness. Included in this initiative is the prevention 
of suicide and suicide attempts. The prevention of suicide is a public 
health issue and necessitates a public health approach that works at 
the primary, secondary and tertiary levels. In line with SAMHSA's 
Prevention strategic initiative, the Administration is addressing AI/AN 
youth suicide through a range of efforts including: the National Action 
Alliance for Suicide Prevention; a proposed Tribal Behavioral Health 
formula grant program; grants to Tribes through the Garrett Lee Smith 
Memorial Act (GLSMA) youth suicide prevention program; implementation 
of the Indian Health Care Improvement Act; the Native Aspirations 
program; technical assistance by the Suicide Prevention Resource Center 
(SPRC); 24/7 crisis support through the National Suicide Prevention 
Lifeline; the recently signed Memorandum of Agreement between HHS (with 
SAMHSA as the lead coordinating agency), the Department of Justice 
(DoJ) and the Department of the Interior (DoI) as required by the 
Tribal Law and Order Act; and inclusion of a request that States engage 
in Tribal consultation as part of their plans submitted in conjunction 
with the new Uniform Mental Health and Substance Abuse Block Grant 
Application.
Alaska Area Action Summit for Suicide Prevention
    The Alaska Area Action Summit for Suicide Prevention, which will be 
held October 25-27 in Anchorage, is the second Summit to be supported 
by SAMHSA, DoI's Bureau of Indian Affairs and Bureau of Indian 
Education, and the Indian Health Service in calendar year 2011. The 
first Summit was held in Phoenix, AZ , August 2-4, 2011 and was 
national in scope with participation from Indian Country. The planning 
for these two Summits stemmed from information gathered at10 regional 
listening sessions held November 2010 through February 2011. The Alaska 
Area Action Summit for Suicide Prevention will offer Alaska Natives the 
same type of high caliber workshops and presentations as the lower 48 
Summit. The events are free and open to Tribal leaders, Tribal service 
providers, school personnel, law enforcement and all others committed 
to addressing suicide and substance abuse issues. Both Summits support 
the work of the National Action Alliance for Suicide Prevention AI/AN 
task force.
National Action Alliance for Suicide Prevention
    On September 10, 2010, the National Action Alliance for Suicide 
Prevention (NAASP) was launched by the U.S. Department of Health and 
Human Services Secretary, Kathleen Sebelius, and former Defense 
Secretary, Robert Gates. The NAASP has a private sector Co-Chair, 
former U.S. Senator Gordon Smith (R-OR), and a public sector Co-Chair, 
Army Secretary John McHugh. Members of the NAASP include, but are not 
limited to, the Surgeon General, Regina Benjamin; the SAMHSA 
Administrator, Pamela Hyde; Department of Interior Assistant Secretary 
of Indian Affairs, Larry Echo Hawk; HHS Assistant Secretary for Health, 
Dr. Howard Koh; and National Indian Youth Leadership Project Executive 
Director, McClellan Hall. In addition, the IHS Director, Dr. Yvette 
Roubideaux, serves as an ex officio Member of the NAASP. Mr. Echo Hawk, 
Mr. Hall and Dr. Roubideaux serve as the leaders of the NAASP AI/AN 
Task Force which will establish specific priorities for Tribal youth 
regarding suicide prevention, intervention, and postvention strategies, 
including positive youth development. The Task Force also helped 
develop the agenda and strategy for the Alaska Suicide Prevention 
Summit for AI/AN communities, leaders, service providers, educators, 
and law enforcement.
Garrett Lee Smith Grants
    Since passage of the GLSMA (P.L. 108-355) in 2004, 19 Tribes have 
received multi-year grants to address suicide prevention among Tribal 
youth, with 22 additional Tribal grants to start this year. This number 
represents 39 percent of the total State and Tribal Youth Suicide 
Prevention Grants authorized by the GLSMA. These grants have provided 
the Tribes funding to help implement a Tribe-wide suicide prevention 
network. The first Tribal grantee was the Native American 
Rehabilitation Association in Oregon, which was one of three GLSMA 
grantees in the first cohort to be awarded additional evaluation 
funding. They will use the funding to enhance their evaluations to 
maximize what could be learned from their important suicide prevention 
activities.
    In September, HHS Secretary Kathleen Sebelius announced $52.9 
million in new grant awards for FY 2011 to States and Tribes for youth 
suicide prevention programs during a visit to Tanana Chiefs Conference 
in Fairbanks, Alaska. The grants support State and Tribal efforts to 
prevent suicide by bringing together public and private sector 
organizations that touch the lives of young people and putting into 
place a network of services that can help in a time of crisis. Fiscal 
Year 2011 Alaskan grantees include: $480,000 to Kawerak, Inc in Nome, 
Alaska; $480,000 to Tanana Chiefs Conference in Fairbanks, Alaska; 
$480,000 to Southeast Alaska Regional Health Consortium in Juneau, 
Alaska; and $469,916 to Bristol Bay Area Health Corporation in 
Dillingham, Alaska.
    SAMHSA also awarded $6.2 million in FY 2011 grants to 21 colleges 
and universities to assist in their efforts to prevent suicide and 
enhance mental health services for students in crisis. The grants are 
designed to enhance services for students with mental and behavioral 
health problems, such as depression and substance abuse, which may put 
them at risk for suicide and suicide attempts. Funds will be used by 
the grantee to develop training programs for students and campus 
personnel, create on-campus networks, conduct educational seminars, 
prepare and distribute educational materials and promote the National 
Suicide Prevention lifeline. In addition, 5 GLSMA grants were awarded 
through the Affordable Care Act's (ACA) Prevention Fund. The University 
of Alaska was awarded $306,000 through the Prevention Fund for a fully 
funded three year grant. The FY 2012 President's Budget would provide 
16 Campus Suicide Prevention grants under the GLSMA.
    One of the Nation's most innovative systems for intervening with 
youth at risk for suicide, the White Mountain Apache's suicide 
prevention program (funded by SAMHSA through the GLSMA grant program), 
includes the evaluation of two culturally adapted interventions that 
target youth who have attempted suicide. These interventions are linked 
to a unique Tribally mandated suicide surveillance system that 
identifies youth who have exhibited suicidal behavior. The 
interventions focus on in-home follow-up with youth who have attempted 
or thought of attempting suicide and were treated and discharged from 
emergency departments. The first intervention, New Hope, is an 
emergency department-linked intervention conducted over one to two 
sessions. The sessions are comprised of a locally produced video and 
workbook curriculum that develops a safety plan for the youth and 
problem-solves barriers to their engagement in treatment. The second 
intervention, Re-Embracing Life, was adapted from the American Indian 
Life Skills Development Curriculum and consists of nine curricular 
sessions conducted weekly in home or office settings. The intervention 
targets problem solving, anger/conflict management, self-
destructiveness, emotional regulation, coping, social interactions, and 
help-seeking behaviors.
Implementation of the Indian Youth Suicide Prevention Provisions of 
        Indian Health Care Improvement Reauthorization and Extension 
        Act of 2009
    On March 23, 2010, as part of the ACA, President Obama also signed 
into law the Indian Health Care Improvement Reauthorization and 
Extension Act of 2009. Title VII, Subtitle B includes provisions 
related to Indian Youth Suicide Prevention. SAMHSA is dedicated to 
undertaking measures to improve the process by which Indian Tribes and 
Tribal organizations apply for grants.
    One such example is that SAMHSA does not require Tribal entities 
applying for agency grants to do so electronically.
    In the FY 2011 cohort of GLSMA State/Tribal grantees, 21 of 37, or 
57 percent, grantees are Tribes, Tribal organizations, or entities that 
have indicated the grant will be used specifically for AI/AN youth 
suicide prevention activities. SAMHSA has made significant efforts to 
take into consideration the needs of Indian Tribes or Tribal 
organizations. Furthermore, SAMHSA does not require any Indian Tribe or 
Tribal organization to apply through a State or State agency for any of 
the agency's grant programs.
Behavioral Health--Tribal Prevention Grants
    The President's FY 2012 Budget for SAMHSA proposed a new grant 
program titled Behavioral Health--Tribal Prevention Grant (BH-TPG), 
which is intended to increase SAMHSA's efficacy in working with Tribes 
and Tribal entities. The BH-TPG represents a significant advancement in 
the Nation's approach to substance abuse and suicide prevention, based 
on recognition of behavioral health as a part of overall health. The 
program would focus on the prevention of alcohol abuse, substance abuse 
and suicides in the 565 Federally-recognized Tribes. Recognizing the 
Federal obligation to help Tribes deal with physical and behavioral 
health issues, SAMHSA would work in consultation with Tribes, 
establishing a single coordinated mental health and substance abuse 
program for all Federally-recognized Tribes. SAMHSA also would consult 
and work closely with Tribes and Tribal leaders to develop a 
comprehensive, data-driven planning process to identify and address the 
most serious behavioral health issues in each Tribal community.
    Tribes would be allowed to use a set percentage (determined after 
consultation with Tribes) of the BH-TPG funds for a combination of 
service and service-related activities, development and dissemination 
of prevention messages, and provider development and linkage building 
to support the Tribes in achieving outcomes. Funding for infrastructure 
activities will enable the Tribe to build service capacity. The Tribe 
would present data to support how the allocation will support 
infrastructure and/or provision of services. In carrying out these 
activities, the Tribe would be required to use comprehensive, evidence-
based programming, and/or proven successful programming, based on 
either mainstream science or proven Tribal traditions. Up to 20 percent 
of the grant funds could be used to fund key support and development 
activities, such as operation of a Tribal prevention advisory group, 
support for a Tribal community coalition, access to an epidemiological 
work group, training and technical assistance to communities, data 
collection and evaluation, and oversight and monitoring of activities. 
The details of the funds distribution would be determined in 
consultation with Tribes.
    SAMHSA appreciates the support that many of this Committee's 
members have expressed relating to this proposal. However, the Senate 
FY 2012 Labor, Health and Human Services, Education and Related 
Agencies appropriations bill did not include funding for this program 
when it was passed by the full Senate Appropriations Committee in 
September.
Native Aspirations Program
    SAMHSA has funded 49 Tribal communities through Native Aspirations 
(NA), a national project designed to address youth violence, bullying, 
and suicide prevention through evidence-based interventions and 
community efforts. NA is unique among SAMHSA suicide prevention 
programs in that it is based on the concepts and values that reflect 
the AI/AN community: that solutions to AI/AN youth violence, bullying, 
and suicide must come from and be embraced by the community; leadership 
must be involved and invested in the solution; it is up to the 
community to determine the approaches that would be most effective for 
them; traditional approaches that are used in non-AI/AN communities in 
America don't always work in AI/AN communities; and that the community 
Elders are crucial to the success of the project.
    To date, nearly 200,000 Tribal members in 20 communities and 2,100 
Alaska Natives in five villages have been provided specialized 
technical assistance and support in suicide prevention and related 
topic areas for these communities. In addition, over 750 community 
members were trained in prevention and mental health promotion in these 
communities.
Suicide Prevention Resource Center
    SAMHSA funds the Suicide Prevention Resource Center (SPRC), which 
provides prevention support, training, and resources to assist 
organizations and individuals to develop suicide prevention programs, 
interventions and policies, and to advance the National Strategy for 
Suicide Prevention. SPRC supports the technical assistance and 
information needs of SAMHSA State/Tribal Youth Suicide Prevention and 
Campus Suicide Prevention grantees and State, Territorial, and Tribal 
(STT) suicide prevention coordinators and coalition members with 
customized assistance and technical resources. SPRC has two senior 
Tribal prevention specialists available to provide technical assistance 
to those seeking information, evidence-based programs and awareness 
tools specifically geared for suicide prevention among AI/AN 
individual. Included on SPRC's Web page dedicated to AI/AN suicide 
prevention is a SAMHSA funded guide titled, To Live To See the Great 
Day That Dawns: Preventing Suicide by American Indian and Alaska Native 
Youth and Young Adults. In addition, SPRC recently released a fact 
sheet titled Suicide Among Racial/Ethnic Populations in the U.S.: 
American Indians/Alaska Natives. \1\
---------------------------------------------------------------------------
    \1\ http://www.sprc.org/library/ai.an.facts.pdf.
---------------------------------------------------------------------------
National Suicide Prevention Lifeline
    The National Suicide Prevention Lifeline (Lifeline) 1-800-273-TALK 
(8255) is a 24-hour, toll-free, confidential suicide prevention hotline 
available to anyone in suicidal crisis or emotional distress. By 
dialing 1-800-273-TALK, the call is routed to the nearest crisis center 
in our national network of more than 150 crisis centers. The Lifeline's 
national network of local crisis centers, provide crisis counseling and 
mental health referrals day and night.
    The Lifeline has a Native American Initiative that includes 
objectives such as:

        1. Establishing and maintaining working relationships between 
        crisis center staff and key stakeholders in Tribal communities.

        2. Developing and delivering cultural awareness and sensitivity 
        trainings as per the direction of the designated Tribal 
        community for crisis center telephone workers.

        3. Strengthening the effectiveness of the local Reservation 
        referrals for suicide prevention supports by identifying 
        relevant, available resources in the Tribal community.

        4. Promoting culturally sensitive social media and educational 
        materials in Tribal communities, as determined by Tribal 
        stakeholders.

    Identifying similarities and differences that can inform serving 
Native American communities on a national level in a culturally and 
respectful manner.
Tribal Law and Order Act
    SAMHSA Administrator Pamela Hyde was pleased to testify before this 
committee in reference to the agency's role in implementing the Tribal 
Law and Order Act of 2010 (TLOA). Through the TLOA, as you are aware, 
Congress sought to engage new federal partners to build upon previous 
efforts in addressing alcohol and substance abuse in the AI/AN 
population. As a result, the Secretary of Health and Human Services, 
the Secretary of the Interior, and the Attorney General, recently 
signed a Memorandum of Agreement (MOA) to, among other things:

        1. Determine the scope of the alcohol and substance abuse 
        problems faced by American Indians and Alaska Natives;

        2. Identify the resources and programs of each agency that 
        would be relevant to a coordinated effort to combat alcohol and 
        substance abuse among American Indians and Alaska Natives; and

        3. Coordinate existing agency programs with those established 
        under the Act.

    The MOA takes into consideration that suicide may be an outcome of, 
and has a connection to, substance abuse. To accomplish the above 
stated goals, SAMHSA sought to establish an Interdepartmental 
Coordinating Committee (Indian Alcohol and Substance Abuse Committee) 
to include key agency representation from SAMHSA, IHS, Office of 
Justice Programs, Office of Tribal Justice, BIA, BIE, and the 
Department of Education. The Administration on Aging and Administration 
for Children and Families within HHS are also represented on the IASA 
Committee. The IASA Committee has created an organizational structure 
to include workgroups to carry out its work.
Uniform Block Grant Application
    On July 26, SAMHSA announced a new application process for its 
major block grant programs the Substance Abuse Prevention and Treatment 
Block Grant and the Community Mental Health Services Block Grant 
(MHBG). The change is designed to provide States greater flexibility to 
allocate resources for substance abuse and mental illness prevention, 
treatment and recovery services in their communities. One of the key 
changes to the block grant application is the expectation that States 
will provide a description of their Tribal consultation activities. 
Specifically, the new application's planning sections note that States 
with Federally-recognized Tribal governments or Tribal lands within 
their borders will be expected to show evidence of Tribal consultation 
as part of their Block Grant planning processes. However, Tribal 
governments shall not be required to waive sovereign immunity as a 
condition of receiving Block Grant funds or services.
    Included within the MHBG application SAMHSA notes that States 
should identify strategies for the MHBG that reflect the priorities 
identified from the needs assessment process. Goals that are focused on 
emotional health and the prevention of mental illnesses should be 
consistent with the National Academies--Institute of Medicine report on 
``Preventing Mental, Emotional, and Behavioral Disorders Among Young 
People: Progress and Possibilities.'' More specifically, they also 
should include Strategies that implement suicide prevention activities 
to identify youth at risk of suicide and improve the effectiveness of 
services and support available to them, including educating frontline 
workers in emergency, health and other social services settings about 
mental health and suicide prevention. Finally, the uniform application 
requests that States attach to the Block Grant application the most 
recent copy of the State's suicide prevention plan. It notes that if 
the State does not have a suicide prevention plan or if it has not been 
updated in the past 3 years, the State should describe when it will 
create or update its plan.
Conclusion
    Thank you again for this opportunity to share with you the 
extensive efforts SAMHSA is undertaking with respect to AI/AN youth 
suicide prevention specifically, as well as other efforts relating to 
Tribal behavioral health issues. I would be pleased to answer any 
questions that you may have.

    Senator Murkowski. Ms. Casto.

         STATEMENT OF L. DIANE CASTO, MPA, PREVENTION 
        MANAGER, DIVISION OF BEHAVIORAL HEALTH, ALASKA 
            DEPARTMENT OF HEALTH AND SOCIAL SERVICES

    Ms. Casto. Thank you, Senator. ``It is time to speak your 
truth, create your community, be good to each other, and do not 
look outside yourself for the leader. We are the ones we have 
been waiting for.''
    Good afternoon. I begin my testimony with the above quote 
from a Hopi elder, as recognition that we must look for 
solutions to the many social, behavioral and physical health 
problems that we face, first, within ourselves and then with 
our families and our communities. We all have a role to play 
and each of us must find the right role that works for each 
situation.
    Today, I would like to focus my testimony on the 
interconnectedness of the many social, behavioral, and health 
conditions that are impacting our young people and their 
futures. In addition, I will address the notion that solutions 
must come from the communities themselves and that achieving 
true systems change requires a collective impact. First, I want 
to recognize that I am not an expert on Alaska Native cultures 
and conditions. I would never presume to be competent in Alaska 
Native culture. I do my best to be responsive to all cultures 
other than my own, but know that I must be respectful. I must 
listen and I must communicate whenever I'm working with 
Alaska's diverse population. So while my testimony today will 
address how I believe we can all work in concert to better 
serve and protect our Alaska Native Youth, I recognize and 
admit my limitations and I realize the views of Alaska Native 
people may differ from my own.
    What I know from my years of experience in social services 
is that for too long we have attempted to address issues 
related to substance abuse, mental health, interpersonal 
violence, teen pregnancy, suicide and other social conditions 
in isolation from each other.
    In the words of Lisbeth Schorr, ``Part of this gap between 
knowledge and action springs from the traditions which 
segregate bodies of information by professional, academic, 
political, and bureaucratic boundaries. Complex, intertwined 
problems are sliced into manageable, but trivial parts. Efforts 
to reduce juvenile delinquency operate in isolation from 
programs to prevent early childbearing or school failure. 
Evaluators assess the impact of narrowly defined services and 
miss the powerful effects of a broad combination of 
intervention.'' This quote is from a book written in 1988 and 
unfortunately, we have not taken the bold steps needed to 
change our existing system of social and health services during 
the past 20-plus years.
    An abundance of research shows us that the issues we are 
here to discuss this afternoon, suicide, substance abuse, 
mental health, interpersonal violence, trauma, loss of culture, 
and other social issues, are all connected.
    If we are to be successful in reducing the incidence and 
severity of these conditions in Alaska, especially among our 
Alaska Native populations, we must focus on a comprehensive 
continuum of care that reaches across the life span, across 
disciplines and agencies and across specific social and health 
issues, with a higher priority on promotion of health, mental 
health and wellness, and more attention to prevention of 
critical social and health conditions.
    Recent data show that Alaska consistently has one of the 
highest rates of death from alcohol-related causes. In 
addition, Alaska's alcohol consumption is highly connected to 
other conditions, including domestic violence, sexual assault, 
child abuse, mental illness and suicide, injury, crime, 
poverty, and unemployment.
    The data shows that Alaska Natives experience the highest 
rate of alcohol induced death. Prevalence of alcohol-related 
deaths among Native females aged 25 to 54 was higher than 
males, and from 2005 through 2009, nearly one of every 13 
Alaska Native deaths was alcohol-induced, with the highest 
rates in rural Alaska.
    Suicide often associated with alcohol and/or other drugs 
was the fourth leading cause of death among Alaska Natives with 
the highest rate among Alaska Native males 15 to 34 years of 
age.
    I share these data to provide context for our discussion 
and to document that these issues are both interconnected and 
severe. What these data do not show is why these conditions 
exist and what we can do to prevent these continuing trends. It 
is my belief that we have the knowledge and the know-how to 
reduce these negative outcomes, but our efforts have lacked 
consistency, intensity, and comprehensiveness.
    Another critical issue we too often overlook is the root 
cause of these conditions. Instead, we work to change the 
visible behaviors, not the reason these behaviors exist. We 
know that trauma, loss of culture and adverse childhood 
experiences all contribute to high rates of substance use, 
mental illness, suicide, and interpersonal violence. We cannot 
only address the specific outcomes of these root causes and be 
successful.
    For most of our Alaska Native communities and people, the 
issue of historical trauma is critical, yet it continues to be 
set aside and overlooked as a key factor. In an attempt to 
recognize its importance, one of my current grantees in Western 
Alaska, whose grant funds focus on the reduction of domestic 
violence and sexual assault, are framing their approach by 
uncovering the very issues of racism, historical trauma, and 
loss of culture among their people.
    Their belief is that until they recognize and resolve the 
damaging effects of these critical issues, they cannot begin to 
address and discuss the specific and separate consequences of 
these root causes, such as interpersonal violence. I feel 
hopeful that this approach, both community-specific and 
community-driven, will produce results that are more far 
reaching than addressing domestic violence and sexual assault 
in isolation.
    When addressing youth issues and how to serve and meet 
their best interest, it is vitally important that we remember 
to include young people in our discussions and decisionmaking. 
In 2006, Dr. Lisa Wexler published her original research 
related to youth and adult beliefs about Inupiat youth suicide 
in Northwest Alaska.
    The conclusion of this research showed that differing adult 
and youth perceptions of youth suicide prevention need to be 
aligned in order to create effective youth suicide prevention 
strategies. Survey results showed a significant disconnect 
between what adults and youth saw as the problems and solutions 
to youth suicide.
    Clearly, the voice of young people, such as Megan Gregory, 
who will be testifying later, must be heard and heeded if we 
are to make progress to improve the lives and future of our 
youth.
    In closing, I bring forth the notion of collective impact 
as the missing element that we need for large-scale social 
change. Similar to my earlier comments about working across 
disciplines and the interconnectedness of social and health 
conditions, collective impact involves more than just 
collaboration. It involves a centralized infrastructure, a 
dedicated staff and a structured process that leads to a common 
agenda.
    Our community level service delivery systems and our public 
and private sector funding practices continue to be barriers to 
shifting our systems to achieve collective impact. For many 
legitimate reasons, most funding is offered for a limited time, 
often for a specific task and time for planning, assessment and 
building community readiness and relationships is not 
supported. Instead of community players working together for 
funding opportunities, agencies compete against each other for 
limited grant dollars.
    Reducing Alaska's rates of suicide, substance use, domestic 
violence, and sexual assault is possible, but we must be more 
innovative in our approach. We have the knowledge of what needs 
to be done and we know what can work. It is now time to break 
out of our intractable national, state, and community systems 
of service and to encourage a more collaborative approach with 
a common agenda.
    There is scant evidence that isolated initiatives are the 
best way to solve many social problems in today's complex and 
interdependent world. No single organization is responsible for 
any major social problem, nor can any single agency cure it. 
Thank you for this opportunity to testify on this critical and 
most important topic.
    [The prepared statement of Ms. Casto follows:]

Prepared Statement of L. Diane Casto, MPA, Prevention Manager, Division 
 of Behavioral Health, Alaska Department of Health and Social Services
    ``It is time to speak your Truth. Create your community; be good to 
each other. And do not look outside yourself for the leader. We are the 
ones we have been waiting for.''
        Hopi Elder

    Good Afternoon. I begin my testimony with the above quote, as 
recognition that we must look for solutions to the many social, 
behavioral and physical health problems that we face, first within 
ourselves and then within our families and our communities. We all have 
a role to play and each of us must find the right role that works for 
each situation. We cannot utilize a ``cookie cutter'' approach to 
address individual, family and community issues--each individual, each 
family and each community is unique and the circumstances that have 
created pockets of unhealthy conditions are also unique. That said, 
there are many similarities and core issues that contribute to these 
conditions.
    Today, I would like to focus my testimony on the interconnectedness 
of the many social, behavioral and health conditions that are impacting 
our young people and their futures. In addition, I will address the 
notion that solutions must come from the communities themselves and 
that achieving true systems change requires a collective impact.
    First, I want to recognize that I am not an expert on Alaska Native 
cultures and conditions--I would never presume to be competent in 
Alaska Native cultures. I do my best to be responsive to cultures other 
than my own, but know that I must be respectful, I must listen and I 
must communicate whenever I am working with Alaska's diverse 
populations. So, while my testimony today will address how I believe we 
can all work in concert to better serve and protect our Alaska Native 
youth, I recognize and admit my limitations. And, I realize the views 
of Alaska Native people may differ from my own.
    I have worked in the social service arena since 1978--first with an 
emphasis on child abuse and neglect prevention, then child protective 
services, Fetal Alcohol Spectrum Disorders, and today a broader 
perspective of behavioral health. What I know from these years of 
experience is that for too long we have attempted to address issues 
related to substance abuse, mental health, interpersonal violence, teen 
pregnancy, suicide and other social and health conditions in isolation 
from each other. In the words of Lisbeth Schorr, ``Part of this gap 
between knowledge and action springs from traditions which segregate 
bodies of information by professional, academic, political, and 
bureaucratic boundaries. Complex, intertwined problems are sliced into 
manageable but trivial parts. Efforts to reduce juvenile delinquency 
operate in isolation from programs to prevent early childbearing or 
school failure. Academics burrow for what remains unknown but often 
fail to herald what is known. Evaluators assess the impact of narrowly 
defined services and miss the powerful effects of a broad combination 
of interventions.'' \1\
---------------------------------------------------------------------------
    \1\ Schorr, Lisbeth B., Within Our Reach: Breaking the Cycle of 
Disadvantage. 1988.
---------------------------------------------------------------------------
    This quote is from a book written in 1988 and unfortunately, we 
have not taken the bold steps needed to change our existing system of 
social and health services during the past 20+ years. Within the last 
few years, I believe we have begun to take deliberate, albeit small, 
steps to change ``business as usual'' practices and to see benefits of 
working across disciplines--integrated, aligned and comprehensive in 
nature.
    An abundance of research shows us that the issues we are here to 
discuss this afternoon--suicide, substance abuse, mental health, 
interpersonal violence, trauma, loss of culture and other social issues 
we face are all interconnected. If we are to be successful in reducing 
the incidence and severity of these conditions in Alaska, especially 
among our Alaska Native populations, we must focus on a comprehensive 
continuum of care that reaches across the lifespan, across disciplines/
agencies and across specific social and health issues with a higher 
priority on promotion of health, mental health and wellness and more 
attention to prevention of critical social and health conditions.
    With funding from the federal Substance Abuse and Mental Health 
Services Administration (SAMSHA) the State of Alaska received, in 2010, 
a Strategic Prevention Framework State Incentive Grant (SPF SIG). One 
component of this project is the development of a state epidemiology 
profile of substance use, abuse and dependency data--including both 
consumption patterns and related consequences. In the most recent 
update, it states that Alaska consistently has one of the highest rates 
of death from alcohol-related causes. In addition, Alaska's alcohol 
consumption is highly connected to other conditions including domestic 
violence, sexual assault, child abuse, mental illness and suicide, 
injury, crime, poverty and unemployment. The profile documents that 
Alaska Natives experience the highest rate of alcohol induced death. 
Prevalence of alcohol-related deaths among Native females age 25-54 was 
higher than males, and from 2005-2009 nearly one of every 13 Alaska 
Native deaths was alcohol induced, with the highest rates in rural 
Alaska. Suicide, often associated with alcohol and/or drug abuse, was 
the fourth leading cause of death among Alaska Natives, with the 
highest rates among Alaska Native males, 15-34 years of age. \2\
---------------------------------------------------------------------------
    \2\ State of Alaska Epidemiologic Profile on Substance Use, Abuse 
and Dependency: Consumption and Consequence. 2011. Available at: http:/
/hss.state.ak.us/dbh/prevention/programs/spfsig/pdfs/EPI_V9.pdf.
---------------------------------------------------------------------------
    I share with you these few data points to provide context for the 
discussion we are having and to document that these issues are both 
interconnected and severe. What these data do not show is why these 
conditions exist and what we can do to reduce and prevent these 
continuing trends. It is my belief that we have the knowledge and know-
how to reduce these negative outcomes, but our efforts have lacked 
consistency, intensity and comprehensiveness. Outside forces, instead 
of community-lead efforts have too often driven attempts to change 
social conditions. True social change comes from the community--''it 
alone determines how change can be disseminated through the practice of 
new behavior--not through explanation or edict.'' \3\
---------------------------------------------------------------------------
    \3\ Pascale, Richard and Sternin, Jerry and Monique. The Power of 
Positive Deviance: How Unlikely Innovators Solve the World's Toughest 
Problems. 2010.
---------------------------------------------------------------------------
    Another critical issue we too often overlook is the root cause of 
these conditions--instead we work to change the visible behavior, not 
the reason these behaviors exist. We know that trauma, loss of culture 
and adverse childhood experiences all contribute to high rates of 
substance use, mental illness, suicide, and interpersonal violence. We 
cannot only address the specific outcomes of these root causes and be 
successful. For example, if a young person turns to alcohol to self-
medicate due to early childhood trauma such as sexual abuse and we deal 
only with the substance use without addressing the reason the young 
person consumes alcohol, our efforts will fail. Instead, we must look 
deeper to understand the reason the youth is using alcohol, and in turn 
look deeper yet to understand the root causes of why sexual abuse of 
children and youth is occurring.
    For most of our Alaska Native communities and people, the issue of 
historical trauma is critical; yet, it continues to be set-aside and 
overlooked as a key factor. In an attempt to recognize its importance, 
one of my current grantees in western Alaska, whose grant funds focus 
on the reduction of domestic violence and sexual assault, are framing 
their approach by uncovering the buried issues of racism, historical 
trauma and loss of culture among their people. Their belief is that 
until they recognize, address, and resolve the damaging effects of 
these critical issues, they cannot begin to discuss specific and 
separate consequences of these root causes such as interpersonal 
violence. I feel hopeful that this approach, community-specific and 
community-driven, will produce results that are more far reaching than 
addressing domestic violence and sexual assault in isolation.
    When addressing youth issues and how to serve and meet their best 
interests, it is vitally important that we remember to include young 
people in our discussions and decisionmaking. Just as I cannot speak 
for Alaska Native people; as an adult, I also cannot speak for youth. 
How adults view and perceive strengths, challenges and needs of youth 
are very different from the views of youth themselves. In 2006, Dr. 
Lisa Wexler published her original research related to youth and adult 
beliefs about Inupiat youth suicide in Northwest Alaska. \4\ The 
conclusion of this research showed that differing adult and youth 
perceptions of youth suicide prevention need to be aligned in order to 
create effective youth suicide prevention strategies. Survey results 
indicated that adult respondents identified boredom as the primary 
reason for suicide among youth. Their proposed strategies to reduce 
youth suicide included programs offering young people activities, 
education, and a sense of culture. However, youth respondents 
identified stress as the largest contributing factor and focused on the 
need for adults to talk to youth about their everyday lives and their 
futures, providing guidance and support to navigate the difficulties 
that arise for young people in rural Alaska. These comments also show 
the critical need for communities to have healthy adults, if we want to 
have healthy youth.
---------------------------------------------------------------------------
    \4\ Wexler, Lisa and Goodwin, Brenda. Youth and Adult Community 
Member Beliefs about Inupiat Youth Suicide and Its Prevention. 
International Journal of Circumpolar Health 65:5. 2006.
---------------------------------------------------------------------------
    Clearly, the voice of young people must be heard and heeded if we 
are to make progress to improve the lives and futures of our youth. For 
this reason, I am pleased that Megan Gregory (2011 National Indian 
Health Service Behavioral Health Achievement Award recipient honored 
for Outstanding Youth Leadership in Suicide Prevention) is testifying 
today--her words, perspective and involvement are critical to finding 
solutions.
    In closing, I bring forth the notion of ``collective impact'' as 
the missing element we need for large-scale social change. Similar to 
my earlier comments about working across disciplines and the 
interconnectedness of social and health conditions, collective impact 
involves more than just collaboration; it involves a ``centralized 
infrastructure, a dedicated staff, and a structured process that leads 
to a common agenda, shared measurement, continuous communication, and 
mutually reinforcing activities among all participants.'' \5\ Our 
community level service delivery systems and our public and private 
sector funding practices continue to be a barrier to shifting our 
systems to achieve collective impact. For many legitimate reasons, most 
funding is offered for a limited time, often for a specific task 
(substance abuse prevention or suicide prevention) and time for 
planning, assessment and building community readiness and relationships 
is not supported. Instead of community ``players'' working together for 
funding opportunities, agencies compete against each other for limited 
grant dollars. ``Funders and nonprofits alike overlook the potential 
for collective impact because they are used to focusing on independent 
action as the primary vehicle for social change.'' \6\
---------------------------------------------------------------------------
    \5\ Kania, John and Kramer, Mark. Collective Impact. Stanford 
Social Innovation Review, Winter 2011.
    \6\ Ibid.
---------------------------------------------------------------------------
    I do feel hopeful that change is beginning to unfold. Within the 
Alaska Department of Health and Social Services, Division of Behavioral 
Health we have ``blended, braided and pooled'' our prevention grant 
dollars to form the Comprehensive Prevention and Early Intervention 
Services Grant Program--funds that used to be offered in three 
different grant programs (substance abuse prevention, suicide 
prevention and fetal alcohol spectrum disorder prevention) have been 
combined to allow communities to connect and integrate their prevention 
programs beyond one social issue and to work toward a larger collective 
impact. The SAMHSA Center for Substance Abuse Prevention (CSAP) through 
their Strategic Prevention Framework State Incentive Grant program is 
moving away from topic specific funding, to allow states and 
communities the opportunity to plan, assess, build community capacity, 
and to utilize data to drive local decisionmaking. This is one of the 
first funding opportunities that not only encourages agency and 
community collaboration, but requires coalition building and broad 
state and community partnerships.
    Nationwide, we are also broadening the vision of prevention to 
include promotion of mental health, physical health and wellness, 
recognizing the need to act earlier and to incorporate all aspects of 
health into our state and community actions.
    Reducing Alaska's rates of suicide, substance use, domestic 
violence, and sexual assault, as well as other social conditions is 
possible but we must be more innovative in our approach. We have the 
knowledge of what needs to be done and we know what can work; it is now 
time to break out of our intractable national, state and community 
systems of service and to encourage a more collaborative approach with 
a common agenda. ``There is scant evidence that isolated initiatives 
are the best way to solve many social problems in today's complex and 
interdependent world. No single organization is responsible for any 
major social problem, nor can any single organization cure it.'' \7\
---------------------------------------------------------------------------
    \7\ Ibid.
---------------------------------------------------------------------------
    Thank you for this opportunity to testify on this critical and most 
important topic.

    Senator Murkowski. Thank you. Sally Smith.

      STATEMENT OF H. SALLY SMITH, SECRETARY/ALASKA AREA 
 REPRESENTATIVE, NATIONAL INDIAN HEALTH BOARD; CHAIR, BOARD OF 
         DIRECTORS, BRISTOL BAY AREA HEALTH CORPORATION

    Ms. Smith. Good afternoon, distinguished members of the 
Senate Committee on Indian Affairs, Tribal leaders and invited 
guests. My name is Sally Smith. I am Yup'ik Eskimo and I am the 
Health Representative from the Native Village of Ekuk. I also 
serve as a Secretary and the Alaska Area Representative to the 
National Indian Health Board. I also have the honor of chairing 
the Bristol Bay Area Health Corporation, headquartered in 
Dillingham, Alaska. It is on behalf of the 565 federally 
recognized Tribes and villages that I present this testimony 
today.
    The National Indian Health Board is grateful for this 
opportunity to participate in this discussion on what has 
become an all too frequent reality for generations of America's 
first people: suicide. While suicide is a serious issue across 
the United States, it is a problem of epidemic proportions for 
our people. As with other health disparities, Indian people 
suffer from incredibly high rates of suicide, especially in our 
youth. Time and time again, this committee has heard the sad 
statistics. Today, I would like to discuss the causes of this 
epidemic and recent comments from our youth.
    Native people experience mental illness and other risk 
factors at very high levels. Encountering multiple risk factors 
at an early age is all too common for our Native youth and is a 
major root cause of suicide. Incidents of unresolved childhood 
trauma or adverse childhood experiences, also known as ACEs, 
are likely much higher for our people than for the general 
population.
    A 1996 study published by Kaiser Permanente, which first 
coined the term ACEs, examined the incidences and consequences 
of these traumas in 17,400 patients. In the study, researchers 
defined 10 separate ACEs and studied how much ACEs could affect 
future adult behavior. They included the presence of one or 
more ACEs is directly linked to higher rates of smoking, 
alcohol abuse, drug abuse, suicide attempts, depression, 
anxiety, promiscuity, sexually transmitted diseases, 
overeating, and unhealthy relationships in adults. Sixty-four 
percent of participants reported at least one ACE, with 16 
percent reporting four or more. Those who reported four or more 
ACEs were 460 percent more likely to be suffering from 
depression and 1,220 percent more likely to have attempted 
suicide. Although similar data does not exist that addresses 
the levels of ACEs in the Native population specifically, I am 
sure that the members of this committee can join me in 
concluding that the number of ACEs in Indian Country is much 
higher. Our people have experienced generation upon generation 
of trauma and data that is available reveals that our people 
continue to suffer disproportionately. Most recently, the 
National Indian Health Board hosted our Annual Consumer 
Conference here in Anchorage, Alaska, which featured a youth 
track that focused heavily on suicide prevention. The youth 
were able to identify risk factors and the barriers to 
overcoming those challenges in each of their respective homes. 
The resulting adverse behavior from ACEs is present in the 
lives of these Native youth. As one youth participant said, and 
I quote, ``In our future community, I would like to see success 
by more kids going to college and more sobriety. I would like 
to see more kids involved in our culture by learning to dance, 
learning our language, and learning our way of life.''
    The National Indian Health Board would like to suggest a 
number of opportunities to bring about changes. First, NIHB 
recommends the establishment of a special Federal grant program 
to address Native youth suicide prevention. NIHB proposes that 
the special program for youth suicide prevention mirrors the 
Special Diabetes Program for Indians in structure. The National 
Indian Health Board recommends that the community based 
approach and grant structure of SDPI can be replicated by 
addressing youth suicide and, like SDPI, have a success of 
community based programs. Second, NIHB would like to reiterate 
its support for swift action on S. 740, the Garrett Lee Smith 
Memorial Act Reauthorization of 2011. This bi-partisan 
legislation has ben co-sponsored by at least two members of the 
Committee, including our Senator Murkowski and the National 
Indian Health Board is grateful and thankful for your support. 
Please do everything to ensure that S. 740 is passed.
    Third, Indian specific data that identifies the factors 
linked to Native youth suicide is needed. Studies in Canada 
have identified how culture moderates the suicidal behavior of 
First Nation Canadians. NIHB recommends that funding is needed 
to apply this research to Tribes in the United States. NIHB 
also supports the replication of the Kaiser Permanente ACEs 
study across Indian Country, and finally, in the President's 
fiscal year 2012 budget request for the Substance Abuse and 
Mental Health Services Administration, the Administration 
proposed the creation and funding of a new Behavioral Health--
Tribal Prevention Grant. This multi-year discretionary grant 
program provides funding for federally recognized Tribes to 
implement evidence based and culturally appropriate substance 
abuse and suicide prevention strategies. Unfortunately, an 
authorization for this program has yet to be included in the 
Labor HHS Appropriations bill for fiscal year 2012. The 
National Indian Health Board urges the Committee to fight for 
its inclusion in any final appropriations legislation.
    I thank the Committee for allowing me to present this 
testimony and for its past work concerning the disproportionate 
rates for suicide among youth throughout Indian Country. I'm 
happy to answer any questions.
    [The prepared statement of Ms. Smith follows:]

      Prepared Statement of H. Sally Smith, Secretary/Alaska Area 
     Representative, National Indian Health Board; Chair, Board of 
             Directors, Bristol Bay Area Health Corporation
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Murkowski. Thank you, Sally, and thank each of you 
for your testimony, your comments here this afternoon. Sally, I 
want to thank you for the very specific recommendations that 
come from NIHB. I think that those are clearly well intended 
and how we're able to implement those recommendations will be 
important.
    Dr. McKeon, I want to ask you, first, as the discussion 
here with this panel has been about some of the programs that 
are available, the grants that are available out of SAMHSA, all 
very important, one of the concerns that I hear as I'm talking 
with Alaskans about, well, what is being done, is a fear or a 
concern that the programs that are available, the grant 
programs, are designed by folks on the outside.
    We call everybody else, the Lower 48 and the outside back 
there, and the concern is, is that here in our state it's a 
little bit different. The problems may be a little more complex 
and we need a little more flexibility with the programs in 
order to make sure that they work from village to village, from 
region to region.
    How can we build programs at the Federal level, fund them 
through federally appropriated dollars, that are more unique 
and catered to some of the problems that we face here in 
Alaska, and I know that there are common threads and, Diane, 
you mentioned some of that, but when it comes to Federal 
dollars, often times we can't compete. Can you speak to that 
for just a moment?
    Dr. McKeon. Yes. Let me mention a couple of things in 
response to the excellent question. The Tribal Behavioral 
Prevention Grants are designed specifically so that Tribes and 
Tribal communities would not have to compete against states for 
Federal dollars that can be used for prevention, including for 
suicide prevention. So that's one thing that's important. I 
also completely agree with you that there is a need for 
solutions to not be developed in one place and then imposed on 
another. I don't think any good scientist will say that even a 
randomized control trial that was shown to be effective that 
was developed in a state like New Jersey or Maryland could 
necessarily just be transplanted to Indian Country, to Alaska 
villages. So it is really important that there are 
individualized approaches and the Native Aspirations Program, 
for example, does exactly that.
    It works on the premise that individual Tribes, individual 
villages and communities, by having assistance in coming 
together, can find the solutions. Certainly, information can be 
shared about what may have been effective elsewhere, but that 
each community needs to make its own decisions and I do think 
that there are what we might consider evidence based principles 
that we can learn from, but that can be tailored in a very 
individual way.
    So we know, for example, that substance abuse is hugely 
important as a risk factor for suicide and that is the case in 
communities across America. That doesn't mean that a particular 
prevention program that's aimed at that needs to be exactly the 
same in Maryland or New Jersey, in Montana or Alaska.
    Senator Murkowski. Based on what is available from SAMHSA 
in terms of the grants that are more specifically focused to 
incorporate traditional based knowledge, are we doing enough? 
Is there enough available in terms of the types of programs, in 
terms of the types of grants? The statistics that we have here 
in Alaska with our Alaska Native young people, the statistics 
that we see on our reservations, I think we all gasp when we 
look at them. Are we doing enough to address the problem, and I 
don't remember if it was you, Diane, or you, Sally, the word 
epidemic was used and I believe that suicide is an epidemic in 
this state and when we have epidemics, an outbreak in disease 
somewhere, all resources are pulled together to stem that. I'm 
not convinced that we're seeing the resources that we need to 
address this epidemic in Alaska and on our reservations. Do we 
need to do more?
    Dr. McKeon. Yes.
    Senator Murkowski. I want to work with you to do more. This 
is too important.
    Dr. McKeon. We are absolutely happy to work with you. I 
think we all need to do more and we all need to learn more. I 
wish that we could say that there was a simple solution in 
terms of suicide prevention. We know that doesn't exist. So it 
is very important for us to talk to each other to learn what is 
working, what is having an impact, what is encouraging, and 
then to build on those efforts. We know that we have not gotten 
to a place where we can rest on our laurels and say, ``Well, 
we've tried and we've tried enough. We don't need to do more.'' 
You're absolutely correct, Senator.
    Senator Murkowski. I want to ask the question to the three 
of you because the ACE study, the Kaiser Permanente study, that 
was undertaken by the Center for Disease Control, the Adverse 
Childhood Experiences study, perhaps the largest scientific 
research study of its kind to analyze the relationship between 
these categories out there of childhood trauma and health and 
behavioral outcomes, you have gone into some detail, Sally, in 
your testimony. I guess that I would ask both you, Richard, and 
Diane; taking what we know from this study, how can we better 
translate into action, whether it is specific programs, whether 
it's grants to address some of these root causes, because it 
seems to me that if we don't get to the root of this, we're 
going to be battling issues like, do we need to move to 
limiting the sale of alcohol in a village? That's not going to 
solve our problem here. How do we get down to the root causes?
    We've got the study. We're acknowledging it. What do we do 
with it from here? Either one of you, go ahead.
    Ms. Casto. Thank you for that question. I'm a huge advocate 
of the ACEs study and in fact, a number of you may have 
participated. We had a presentation by Dr. Vincent Felitti, who 
is the primary author of the ACEs study. He was here in Alaska 
last April, and you know, so I think there are a couple of 
things I want to say about it. First of all, the study is 
fairly old. I mean, it's just one of these things that----
    Senator Murkowski. How old is it?
    Ms. Casto.--I think it's about 12 years old. Do you know?
    Ms. Smith. Well it was 1996.
    Ms. Casto. 1996, okay, so it's fairly old. I mean, and I 
say that because when it first came out, I was actually still 
working in child abuse and neglect prevention as my primary 
field and I was so excited by this study because I thought, 
yes, this is information that we know in our hearts, those of 
us who work in these fields. We know this to be true and it's 
so nice to finally have research behind it, but nothing ever 
happened.
    I mean, it's sat for a long, long time and suddenly, 
probably in the last two years, suddenly, people have been 
talking about it and I think something that was interesting 
when Dr. Felitti was here is that one of the questions I asked 
him after his talk was; so at Kaiser Permanente, have you 
incorporated this information and are you using it on a daily 
basis to make decisions, and these are his words, I quote him, 
``Hell, no,'' and I said, ``Why not,'' and he said, ``Well, 
it's like anything. We get money to do research. The research 
comes out and then it sits and nothing happens.'' So I think 
this is one of those pieces of research that it is time for us 
to really engage with and look at because, as I talked about, I 
believe these are all interconnected and we cannot, again, deal 
with them separately and I look at issues like alcohol use in 
Alaska. Alcohol is our number one drug of choice across the 
board for everybody in Alaska. It's number one and it impacts 
so many of our other health and social service issues and if we 
have adults who are drinking and children are raised in those 
families, that is exactly what ACEs is talking about. Children 
who are having these adverse experiences when they are young 
and then it makes them at much higher risk for these behaviors 
later.
    So I think that there are a number of things we can do. I 
think first of all, just making sure we're all aware of the 
report, of the study, of the research, knowing what it says and 
what it means, incorporating that, not just letting it sit and 
incorporating that into the work that we do. At the Department 
of Health and Social Services, we have started over the last 
few years, really tying this into our grant programs and into 
the work that we're trying to do with our community grant 
program.
    I would also like to just talk for a moment about at the 
Federal level, one of the programs that I believe really is 
starting to make change kind of in this area--and that is the 
SAMHSA Strategic Prevention Framework State Incentive Grant. It 
is the first Federal grant program that I've been involved with 
where they are giving money to the state to really assess what 
is the issue at the state, not from D.C., but for us to be able 
to look at what are the issues we are facing and then address 
them from the data that we've accumulated and so we have three 
Strategic Prevention Framework Grants here.
    We have one at the state level and we have two Tribal SPFs, 
one with Tanana Chiefs Conference and one at Cook Inlet Tribal 
Association. So together, the three of us have been, you know, 
leveraging our money and our work and I really believe that we 
will start seeing some progress because, again, it allows for 
communities to plan, to look at their data, to really address 
what are the critical issues that they are facing, not what 
some request for proposal says you need to focus on.
    So I think if we can get more funding that is offered in 
that way where communities can really take a look at these 
issues and look at them in total, not look at them, you know, 
again, just suicidal or just substance abuse or just domestic 
violence, we need to be looking at them together because as the 
ACEs report so clearly states, these are all interconnected and 
they all impact each other.
    Senator Murkowski. Dr. McKeon, is there room, do you 
believe, to undertake a similar study that may be focused on 
our Native people and on our kids similar to what we saw with 
ACEs? Do we need to have another study, I guess? You mention 
that it's old. It can certainly stand to be updated. Are we 
looking at this as an opportunity?
    Dr. McKeon. I'm not aware of any current plans to do that. 
I don't think there's any reason to think that the information 
in here is not accurate for Native communities and I think that 
it's a very important approach for us to take--is to be working 
to make changes, but to evaluate the impact of what we're 
doing, so that we know whether we're making progress and so I 
think that's a very important focus for us. You know, Senator, 
a lot of what we do in suicide prevention is kind of very late 
in the trajectory of a person's distress and hopelessness 
developing. So for example, we support a National Suicide 
Prevention Lifeline, which I think is very crucial and just 
under 3,000 Alaskans called the National Suicide Prevention 
Lifeline within the last 12 months and in many of our grant 
programs, we focus on identifying the warning signs for 
suicide, but once somebody is suicidal, they've already 
experienced an awful lot in terms of the development of 
substance abuse, in terms of the experience of trauma and so 
it's very important that we get better at intervening earlier 
before the problems reach that desperate level.
    We need to continue our efforts to work with people who are 
suicidal or about to become suicidal, but we can do a better 
job moving forward. SAMHSA has a National Child Traumatic 
Stress Network that tries to work to get information out to 
providers across the country to help them more effectively 
treat individuals impacted by trauma and certainly, if we 
prevent substance abuse, there is every reason to think we're 
going to also prevent suicide. Thirty to forty percent of all 
the suicides in the United States take place with someone who 
has a measurable blood alcohol level at the time that they make 
that attempt and there is similar data for suicide attempts. So 
we need to intervene as early as we can, while at the same 
time, we continue our efforts to help those who are in a very 
desperate and hopeless place.
    Senator Murkowski. Well, you have really identified so much 
of--it seems what we end up doing is kind of being, I guess, 
reactionary or it's the triage or we get to them too late. On 
the education side of things, I'm focusing on drop out 
prevention, how we can deal with our kids in the schools.
    We've been focusing our efforts on kids when they hit high 
school, when they've already made the decision years ago that 
they were checking out. I want to focus on early intervention. 
It seems to me that when we're talking about suicide and 
suicide prevention, it needs to be early intervention and not 
just, as you say, when you've had an attempt and we say, 
``Okay, now, we'll whisk you in and try to solve all your 
problems.'' How we direct that earlier is key.
    Diane, you talked about kind of this collective approach 
and the collective impact and indicated that with many of the 
grants and the programs that are out there, you've got 
competition within agencies. You've got lots of competition for 
limited pots of dollars. You've got short-term grants, so that 
in terms of really trying to build out something that works for 
the long-term, you don't know if you're going to be funded 
beyond the next fiscal year and so how you kind of built this 
out, how can we do a better job here, because this is not 
something that if we just get on top of the statistics for a 
year or two, we're good here.
    This is a longer-term problem. How do we resolve the 
collective impact that you've discussed and do a better job of 
making sure that there's linkage all the way throughout the 
process?
    Ms. Casto. If I had the answer----
    Senator Murkowski. I know. We're all looking for it.
    Ms. Casto.--we would be out of here, but what I will say 
is, you know, I think that what I have discovered over the last 
few years, because we have really been trying to make changes 
within our little section in the Division of Behavioral Health 
for prevention and early intervention. We have been working 
very hard. We've taken money that used to be given out in three 
grant programs, we've now blended, braided, and pooled it so 
it's being given out in one comprehensive approach so that 
letting communities know that we want them to look at broader 
issues together. So we've started, but I will also say that we 
have a very ingrained system. Myself, I used to work in the 
nonprofit world before I started working for the state and so I 
know. I used to write grants and I remember when, way back, 
when Myra Munson was Commissioner of Health and Social Services 
many years ago and I was working in Fairbanks at an agency, I 
was the Director, and Myra came and talked to all of us in the 
community about I want you all working together and this was 
back in the 1980s. I want people pulling together, writing 
grants together and everyone sat through the meeting very 
politely and nodded and agreed, and I, for one, was really 
excited because that's how I like to do business and after the 
meeting, I started talking to my colleagues and people said, 
``Well, we'll just write these letters saying we're supporting 
each other and then we're just going to do business as usual.''
    Not much has changed. I mean, there is such a culture out 
there of competition, of specialty. Each agency has its own 
specialty, so that I believe and what we have now started 
doing, we have a new grant, part of our SPF SIG money, is we 
mandated that this was not going to be an agency grant. It's 
going to be a community coalition grant and you have to work as 
a coalition.
    Now, we just had a meeting a week ago where we brought all 
of our grantees to town and they brought their coalition 
members and it's hard work. It is very hard work, but I'm just 
now starting to see a little bit of a change and I think that 
if people will start working in concert, working together, and 
they start seeing some successes, then it will start taking 
hold, but I do believe at both, the Federal level and at the 
state level and at any foundation level, that we do need to 
change the way we give money, because right now, the way the 
process is set up, it almost requires competition and so if we 
don't change that, the communities are not going to change and 
so I think we have a huge responsibility, those of us who give 
funding out, to make those changes, to start looking at it from 
a collective impact and putting some requirements that we're 
not going to let just one agency try to solve this problem. 
This is a community issue and communities need to all be 
together and I think that is especially true with our funding 
being limited and being time limited and we know right now with 
the Federal budget, the state budget, times are tough and that 
money is probably going to get tighter, not more abundant.
    So with that knowledge, we need to start getting people 
able to think about sustaining, and when I say sustaining, 
usually people say we're getting more money, but I'm talking 
about sustaining the efforts, sustaining the movement, 
sustaining the commitment to make change in a positive way and 
to build health communities.
    Senator Murkowski. Dr. McKeon.
    Dr. McKeon. I think it was for exactly these reasons that 
the concept of the Behavioral Health Tribal Prevention Grants 
were developed. There is wonderful work that's being going on 
through the Garrett Lee Smith Memorial grants, for example, but 
as mentioned, even though Tribes, Alaska villages, and 
corporations have done a good job of competing for them, it is 
a competition and each year, they will be competing against 
states, but the Behavioral Health Tribal Prevention grants are 
not a competition. Any one of the 565 Tribes would be eligible 
for that money and would not have to compete and it would be 
able to continue. That's why we feel so supportive of that 
effort.
    So for example, one of the most successful examples of 
suicide prevention in the United States took place back in the 
late 1990s in the United States Air Force. They focused on 
suicide prevention. They had leadership commitment. They had a 
range of initiatives and they reduced suicide in the Air Force 
by one-third, but then what they found was that when they 
stopped focusing on it, that the rates began to increase and 
then they had to redouble their efforts and the rates came down 
again and so this has been studied scientifically very 
carefully, looking at this.
    So we know that it can't just be in a couple of places. It 
needs to be in many places. It needs to be in all of the Tribes 
and we know that effort needs to be sustained. It won't work as 
a three-year project, unless that project can be sustained in 
year four, year five, year six.
    Senator Murkowski. Sally, you'd come at this from wearing a 
couple of different hats, not only on the National Indian 
Health Board, but now with Bristol Bay Native Health 
Corporation. The issue of the competition for the grants, I 
think, is an important one and unfortunately, it may be that in 
areas that might have greater need, you don't have the 
expertise to write the grants, just the structural issues, keep 
those who need access out. How do we do better, and you come at 
this from a very interesting perspective and I think that we 
might be able to find some solutions if we're cooperating a 
little bit better on this.
    Ms. Smith. Oh, dear, don't let me get started on 
competitive grants.
    Senator Murkowski. I'm sorry.
    Ms. Smith. Thank you very much for the question and I 
appreciate the opportunity to respond to it. I have an 
interesting way of looking at this, first, from the national 
level with regard to the National Indian Health Board being an 
advocacy organization and hearing what the Tribes across the 
nation are saying, which is, some of the Tribes are big enough 
to have enough staff in-house so that when a grant is offered--
and when a grant is offered with a very short time, they have 
the personnel, the infrastructure to dedicate specific staff 
and personnel to apply for that grant.
    Take the communities in Alaska or some of the smaller 
Tribes and the reservations in the Lower 48, when a Tribe in 
Alaska knows that there's an opportunity for a grant that is 
out there, yes, we want the grant, but we look at our staff 
members and we don't have the capacity to apply for them. When 
we look at a grant that is noncompetitive, sometimes it turns 
out to be too good to be true, in that you apply for the grant 
and you're successful, thank goodness, and then the obligations 
to follow it is just immense because it really brings in the 
need, and I see heads nodding, the need to have additional 
staff to make that successful grant application, because in the 
end, transparency and the need for accountability--let's take a 
competitive grant. I mentioned earlier, SDPI, the Diabetes--
Special Diabetes Program for Indians. I served on that for nine 
years. It's still an ongoing committee. It's a very well 
structured, it's a type of structure that can be replicated in 
a way that would garner success, whether you're a small Tribe 
or a large Tribe and we're able to craft the reports with 
factual data and information to the Senator and to others in 
Congress that need that information so that we can be 
successful in having the dollars continue to flow, but when you 
offer the opportunity and place a grant out there and it's 
competitive, it is--and we're hearing that sometimes it's not 
even competitive within Tribes across the nation, but against 
states, it makes it every more difficult and I have told the 
past Secretaries of Health for many years, what we need to do 
is to do a Tribal set aside or Tribal specific. When that 
happens, then we don't have to go to the state, bless their 
hearts. They try to do their best, but once the money gets to 
the states, sometimes it languishes and when that happens, it 
doesn't come out to the Tribes. Why not set it up so that 
there's a direct pass-through, not through the state, but right 
to the Tribes?
    Tribal organizations are businesses and we recognize the 
seriousness of setting processes in place, our businesses in 
place so that we can compete with anyone in corporate America. 
We really can. We may be small and we may struggle at times, 
but we do good work. We know what we're doing, but more 
importantly, we know what Alaska Native people, we know what 
American Indian people need.
    I'm Yup'ik Eskimo. I was born and raised in a very small 
village at Clark's Point, Alaska, 97 people, and so I lived the 
subsistence lifestyle and I know some of the problems with how 
by the time the money gets down through the system, it is so 
minuscule, some of our little villages only receive $112. I use 
that as an example.
    I'm looking at you. What can you do with $112 when you have 
97 people in the village and they need help? So I'm glad I'm 
hearing the conversation we're having here and the Senator is 
hearing it as well. Ladies and gentlemen, this Senator fights 
on our behalf and whatever we say to her today, she brings back 
and she truly, truly turns the wheels in D.C. to make the 
comments that she's going to be hearing today work, not only 
for American Indians and Alaska Natives, but because she has a 
vested interest. She's Alaskan through and through and 
understands the issues.
    From the National Indian Health Board, we're talking about 
being reactive. For the first time, the National Indian Health 
Board in our meeting last month, formed a youth committee and 
it's our intent to not only support that youth committee, but 
truly hear the comments, not only from youth in Alaska, but 
youth across the nation. It tears at your heart when you hear 
the comments from our youth.
    All they want is a safe home. All they want is to be like 
everyone else. All they want is to be having a square three 
meals a day and they want what everyone else in America wants; 
good, smart, young men and women, and the National Indian 
Health Board is committed to making sure that we hear the 
voices of the young and bring it to the national level, do 
something about it and we need your help.
    So it's--suicide is personal, personal for everyone in this 
room because you know someone and you've had family members and 
those of us that are left, our tears fall constantly. It's a 
hole in our heart and when we go home to our small communities, 
it's the entire community that hurts. You know, we wrap our 
arms around everyone in the community and when we bury one of 
ours, it's one too many. Every attempt is one too many.
    If you read my handout, you'll see in my testimony, it 
talks about the high rates, the health disparities, the number 
of suicides, the number of attempts. That's not 
sensationalizing it. That's us going home and knowing what to 
expect at home, but we have to do something to turn that tide.
    It takes every one of us in this room and everyone else 
that we can link hands with to make the change. If not for me, 
but for our children and for our grandchildren to come. That's 
why we do it. Thank you, Senator.
    Senator Murkowski. Sally, thank you. Your words are a very 
strong reminder to us all and I think when we look to the 
solutions, we can talk about programs and grants and funding 
and legislation, but I believe that the solutions will not come 
unless we're listening to our young people. So with that, I'd 
like to thank the three of you for your commitment, your 
passion, your service, and willingness to make a difference, 
know that I want to work with all of you at all different 
levels because, as you have said, burying one is one too many. 
So thank you for what you do and I'd like to, at this time, 
turn to our second panel.
    We're going to hear from some of our brightest Alaska 
Native leaders, who are really out there championing the cause, 
championing the cause of youth suicide prevention, youth 
leadership development, and really how we reclaim our future 
here through self-empowerment.
    I think we've got some good role models that we're very 
proud of and as important as it is to understand the processes 
that we deal with at the Federal level and at the state level, 
again, so many of the solutions, I think, come from those who 
have committed so much to the effort.
    At this time, I would like to call Dr. Ted Mala, Megan 
Gregory, Evon Peter, and Tessa Baldwin forward. For the second 
panel this afternoon, we have Dr. Ted Mala, who will be leading 
us off and he is the Director of Tribal Relations and 
Traditional Healing at Southcentral Foundation, has truly been 
a leader in our state for decades now and the contributions 
that you have made, Ted, have been substantial and we thank you 
for your commitment.
    Next, we have Megan Gregory. Megan is the Youth Ambassador 
Program Director and Community Project Assistant for SEARHC, 
for the Southeast Alaska Regional Health Consortium. She's part 
of the Behavioral Health & Suicide Prevention Program there at 
SEARHC. Megan is a former intern of mine. So I am very proud of 
her as well, but Megan also serves on the Advisory Board, the 
Youth Advisory Board for a program that Senator Byron Dorgan of 
North Dakota has established at the Aspen Institute to look at 
the issue of youth suicide and Megan and I are working on that 
initiative back in Washington, D.C. So we thank you for what 
you do. Mr. Evon Peter is a friend to many in the room. He is 
the Director at Maniilaq Wellness in Kotzebue and Maniilaq is 
one of the grant recipients there or the grants that we were 
talking about earlier and then we have Tessa Baldwin and this 
is my first opportunity to meet Tessa. She is the youth member 
of the Alaska State Suicide Prevention Council and founder of 
Hope4Alaska Project in Kotzebue, Alaska. I received an email 
from a woman who is associated with AASG, the Alaska 
Association of Student Governments, and it was made very clear 
to me that Tessa is truly a leader, that AASG has been working 
on this. The issue of youth suicide has been made a number one 
priority, which we greatly appreciate and I appreciate your 
leadership, Tessa, so thank you for joining us and with that, 
we'll just start off at the end.
     Dr. Mala, you will lead off and each of you will have 
around five minutes or so or however long it takes you to get 
your message across. Thank you.

       STATEMENT OF TED MALA, PHYSICIAN/DIRECTOR, TRIBAL 
RELATIONS AND TRADITIONAL HEALING, ALASKA NATIVE MEDICAL CENTER

    Dr. Mala. Great, thank you. Thank you, Senator Murkowski. 
My name is Ted Mala. I'm an Alaskan Native physician and have 
been the former Commissioner of Health and Social Service for 
Alaska, as well as the past President of the National 
Association of American Indian physicians. I work as the 
Director of Traditional Healing at the Alaska Native Medical 
Center. I work for Southcentral Foundation and I'm very honored 
to be asked by you, Senator, to come here and I also want to 
add my voice to your thanks for your, not only your friendship, 
but your tireless work for our people and I know how this 
touches your heart, as well as all of ours and we just can't 
thank you enough.
    The act of suicide, as we all know, is a very complicated 
problem and I suspect it touches everyone who hears my voice. 
It springs from feelings of helplessness and hopelessness and 
we know there's a correlation of a lot of things that happen to 
people when they get to that level, especially experiences in 
childhood, domestic violence, sexual abuse, maltreatment. 
Traditional healing is the approach I would like to present to 
you today because even when I was Commissioner 20 years ago, we 
heard exactly the same words and the sense of hopelessness and 
how many dollars does it take to fix it and all that and today, 
I would like to present to you for your consideration and the 
Committee's consideration, the approach of the culture of 
Alaska Native people and capitalizing and gaining wisdom from 
the over 10,000 years of experience our people have had.
    Times have been rough, but they're always rough. I mean, 
imagine you living in the time of when the Russians ran this 
territory and before that. Times have always been tough here 
and we've always gotten through it with money or without money. 
I think what's really important is to think about what 
traditional healing brings to the table and we talk about, not 
only the mental, but the physical, the emotional, and the 
spiritual balance of individuals and how it needs to come back 
to people's lives and how we need to balance family and 
community structures.
    Traditional healing helps to do that and there's been an 
incredible surge of people around the state that have said, 
``Help us set up a traditional healing clinic,'' and at 
Southcentral Foundation and the Alaska Native Medical Center, 
we have both, side by side, traditional Alaska Native healing 
and Western allopathic medicine, which is just amazing. We also 
won the award, as you well know, from the Director of Indian 
Health Service for being one of the best clinics in the United 
States because again, people are starting to recognize the 
value of our culture and how, without incorporating these 
values, things just don't happen.
    In traditional healing, we engage the individual. We say, 
``You are responsible for your own health.'' We say that you're 
your own physician. We form kind of a circle and say, ``This is 
our best advice, but you are your own physician. It's up to you 
to take the advice and to heal yourself,'' and we do that 
mentally, spiritual, physically, and emotionally. Traditional 
healing--we offer counseling. We offer healing touch, also 
physical work, prayer, songs, consultations with elders, and 
all these things that have been handed down through 
generations. A lot of people have been disconnected. I don't 
know. They've been maybe more connected to the Internet than 
connected to culture and we try to ground people, to say these 
are the basic values that have kept our culture strong through 
so many thousands of years. Southcentral Foundation is an 
example of one of the Native health corporations that takes 
this from different points of view. Traditional healing is one 
of them. We have the Family Wellness Warrior Initiative, which 
many of you are aware of. We have behavioral health approaches. 
We have the Pathway Home, the therapeutic family group homes 
and what we try to do is build on the strength of Native 
culture and traditional values. So young people and others can 
find their footing on their journey to wellness.
    We have a Denaa Yeets program, which is Athabascan for our 
breath of life and we offer services to Alaska Native and 
Native American people, especially those who have thoughts of 
harming themselves or attempting to end their lives. This 
program emphasizes connecting participants with their cultures. 
It's a well-known protective factor.
    Traditional wisdom is the root of everything we do as an 
organization. We've been able to help families and youth find 
balance and healing of their journey. So my message today, 
Senator, and to the Committee, is that there are a lot of 
programs that come to Alaska, but there are also Alaska Native 
solutions that are here and we need you to ask people to 
listen, before they write these grants, before they give out 
all of these things, come up and learn first and find out what 
the needs are, rather than trying to guess them and I know 
you're leading that cause and we thank you and bless you for 
your work. Thank you.
    [The prepared statement of Mr. Mala follows:]

 Prepared Statement of Ted Mala, Physician/Director, Tribal Relations 
         and Traditional Healing, Alaska Native Medical Center

    I am submitting written testimony on behalf of Southcentral 
Foundation (SCF), the Alaska Native owned and operated 
nonprofit health care affiliate of Cook Inlet Region Inc. 
(CIRI) providing services to some 58,000 Alaska Native and 
American Indian people in Anchorage, the Matanuska-Susitna 
Valley, and 55 villages in the rural Anchorage Service Unit. As 
Southcentral Foundation's Director of Tribal Relations and 
Director of Traditional Healing, I want to thank you for the 
opportunity to testify on how Southcentral Foundation uses 
traditional practices to address the epidemic of suicide among 
Alaska Native youth.
    Suicide has been an epidemic in Alaska for many years. We 
are all familiar with the statistics, including that Alaska 
Native men between the ages of 15 and 24 have had the highest 
rate of suicide of any demographic group in the country, with 
an average rate of 141.6 from 2000 to 2009. \1\ We also know 
that, across the nation, one suicide is estimated to intimately 
affect at least six other people . And that, in Alaska, this 
effect is magnified due to large, extended families and close-
knit communities.
---------------------------------------------------------------------------
    \1\ http://www.samhsa.gov/samhsanewsletter/Volume_19_Number_2/
ActionAlliance.aspx.
---------------------------------------------------------------------------
    The problem of suicide, as we all know, is complicated. It 
springs from feelings of helplessness and hopelessness. There 
is also a known correlation with multiple experiences of harm 
in childhood such as domestic violence, sexual abuse and 
maltreatment. Many Alaska Native people who were harmed as 
children have also developed the full range of mental health 
problems that studies have shown are common to survivors of 
abuse: depression, anxiety, alcohol abuse, drug abuse, harm to 
self; difficulty choosing supportive, safe partners; and, 
difficulty in forming and maintaining close relationships. 
Intergenerational grief--when grief, shame and anger are passed 
from one generation to the next--has also played a role in our 
wellness today.
    Because Alaska Native people have always approached life 
holistically, when one aspect, like subsistence, is disrupted, 
a sense of balance is lost. The same applies to domestic 
violence, child sexual abuse, and child neglect--over time, 
these experiences have compromised the physical, mental, 
emotional and spiritual balance of individuals, as well as the 
balance of the family and community structures.
    Alaska Native people are resolute. We are leading the 
charge to change the statistics and restore a sense of balance. 
And, we are working together to bring back the traditional 
values that served Alaska Native people for thousands of years.
    For millennia, Alaska Natives survived and thrived in one 
of the harshest environments on earth. They survived by working 
together to gather food, staying close as a family and a 
community, and living out their spirituality in everyday life. 
Alaska Native traditional healing draws upon this body of 
knowledge. It focuses not on a single symptom, but on the 
entire being--a balance of physical, mental, emotional and 
spiritual wellness. Addressing the problem of suicide among 
Alaska Native youth must take a similar, multipronged approach.
    At SCF, our vision is that of ``a Native Community that 
enjoys physical, mental, emotional and spiritual wellness.'' 
Alaska Native values and priorities inform how we provide 
services to our communities. Culture is not built into our Nuka 
System of Care, but rather, our system is built on the 
foundation of our culture. The 12-year-old Traditional Healing 
Clinic is a good example.
    Traditional healing is based on the understanding that man 
is a part of nature and health is a matter of balance. The 
Traditional Healing Clinic brings Traditional and Western 
medicine together--merging the strengths of both. We use the 
balance between Western medicine and Traditional healing that 
we have developed to provide support for each customer-owner on 
their journey--where they get stuck, that's where we intervene. 
It is a holistic approach that focuses on the body, mind and 
spirit. The purpose is not to supplant Western medicine, but to 
supplement it to achieve total healing.
    SCF has a process for certifying Alaska Native healers as 
Tribal Doctors. Each Tribal Doctor brings something different 
to the table. We offer a mix of healing touch and other 
physical work with prayer, songs, consultations with Elders, 
and culturally sensitive supportive counseling. These skills 
have been handed down through generations. A Traditional 
Healing Advisory Council guides our program by reviewing 
apprentices and Tribal Doctors and sharing the wisdom of our 
Elders. On our weekly rounds, our Tribal Doctors walk with 
providers, psychologists and psychiatrists, talk with the 
people who receive care, and review and discuss their cases and 
journeys.
    An appointment with a Tribal Doctor takes more time than an 
appointment in the primary care clinics--an hour or more, 
compared to 15 minutes. That's because there is no textbook 
answer to an individual's problems. Each person is unique--the 
product of who they are, where they come from, and where they 
are going. A Tribal Doctor must spend time with each person, 
getting to know them, drilling down to find the roots of the 
problem. We look to the person who needs help as an active 
partner in their treatment. All that we as traditional healers 
can do is guide them, based on our traditional knowledge and 
experience and what we learn about the person. The individual 
has a sense of control of their own growth and healing, which 
provides a sense of balance and helps them to heal.
    Another resource SCF provides to address the root causes of 
suicide is the Family Wellness Warriors Initiative (FWWI). 
Through this Alaska Native led initiative, we are breaking the 
cycle of domestic violence, child abuse and neglect. For a long 
time, we were told not to talk about these issues. But, Alaska 
Native people have made the decision to break the silence.
    In 1999, the FWWI Steering Committee established the 
following goals: (i) Change norms among Alaska Native people, 
particularly males, to (re)create a family environment that 
reflects Alaska Native traditions, free from domestic violence 
and other forms of conflict; (ii) Increase a sense of 
``harmony'' within Alaska Native families and, ultimately, 
within the whole community; and (iii) Develop support systems 
to help both those who abuse and those who are abused while 
norms are changing and abuse is being eliminated.
    Traditionally, in our Native cultures, lessons are learned 
by sharing and listening to stories. At FWWI's two core 
training events--Beauty for Ashes and Arrigah House--Elders 
lead the way by sharing their stories and granting younger 
generations the permission to do the same. In large group 
settings, group leaders and presenters role model what it looks 
like, sounds like, and feels like to share stories, as well as 
respond in a way that encourages healthy relationships. They 
show that it is safe to share; that there is no judgment. 
Participants then share their stories in small groups. As part 
of this FWWI process, Alaska Native people, from ages 21 to 91, 
are breaking the silence for the first time and being heard, 
affirmed, and believed. Participants also learn how past harm 
plays into interactions with others; learn about shame, anger 
and other feelings; and gain communication and conflict 
resolution skills. The process leads to mental, emotional, and 
spiritual healing, which helps create healthier families and a 
better future for our youth.
    In addition to our prevention work, SCF has a variety of 
behavioral health programs in place to help youth who grew up 
with multiple experiences of harm. We screen young customer-
owners for substance abuse and depression issues and refer them 
to appropriate treatment, which may include programs such as 
The Pathway Home or the Therapeutic Family Group Homes. These 
programs are built on the strengths of Alaska Native cultures, 
and, through the services provided, youth learn more about 
traditional values as they find their footing on their journeys 
to wellness.
    Denaa Yeets', Athabascan for ``our breath of life,'' offers 
services to Alaska Native and American Indian people over the 
age of 18 who have thoughts of self harm or have attempted to 
end their lives. Services consist of four strength-based, 
culturally driven components: information, case management, 
support activities, and referrals to community resources. The 
program emphasizes connecting participants with their cultures, 
as a known protective factor. This includes interacting with 
Elders, beading with clinical associates/case managers, talking 
circles and other cultural activities. These program activities 
bring each participant an increased sense of self-worth, 
cultural identity, and desire for life. SCF also staffs the 
program with three full-time Denaa Yeets' team members focused 
on youth outreach and training.
    SCF has been sought out by people and organizations from 
around the state, country, and world who want to learn from us 
in order to help their own people. We share our story with 
them, including how we use culture and traditional healing to 
teach people how to cope, how to build an extended family and 
how to support others. We accomplish this through a wide range 
of programs, including the ones I have referenced in this 
testimony (Traditional Healing Clinic, Family Wellness Warriors 
Initiative, The Pathway Home, Therapeutic Family Group Homes, 
Denaa Yeets') and many others.
    With traditional wisdom at the root of everything we do as 
an organization, we have been able to help families and our 
youth find balance and healing on their journey. These are 
Alaska Native solutions, rather than mainstream programs that 
have been brought to Alaska. And, while many of these programs 
have waiting lists and need more resources, including staffing, 
to meet the needs of our Alaska Native families and our youth, 
we are encouraged by these successful models Alaska Native 
people have created for change. We can now tell our young 
people that there is hope and that the answers can be found 
within our own strong, resilient cultures.

    Senator Murkowski. Megan.

         STATEMENT OF MEGAN GREGORY, COMMUNITY PROJECT 
         COORDINATOR, SOUTHEAST ALASKA REGIONAL HEALTH 
          CONSORTIUM; BOARD MEMBER, CENTER FOR NATIVE 
                         AMERICAN YOUTH

    Ms. Gregory. I would like to express my deep appreciation 
for inviting me to testify before the Senate Committee on 
Indian Affairs Oversight Hearing, Senator Murkowski, the 
Honorable Chairman Akaka, and members of the Committee. My name 
is Megan Gregory and I am a Tlingit from the Wooshkeetaan Clan, 
originally from Kake. The high suicide rates in Alaska cause 
our society to feel devastation in our families and our 
communities. We have a great deal of work ahead of us because 
all Alaskans deserve a better life. We, as Alaska Natives and 
American Indians, need to work together to keep building 
prosperity on those good things and build on the wonderful 
people that make Alaska and Indian Country such a beautiful 
place to live. I believe providing more youth leadership roles 
is an important step to help prevent suicide in Alaska. I was 
fortunate to participate in various leadership roles that have 
led me to work in my community, my region, my state, and 
eventually, nationally, at the national level.
    In 2005, I was fortunate to intern for Senator Lisa 
Murkowski in Washington, D.C. for four weeks. It was my first 
experience spending time on the East Coast and her internship 
inspired me to stay involved in Alaska politically. In 2009, I 
had the opportunity to serve as the inaugural Youth Advisor for 
Sealaska Corporation and in 2010, I served as the youth 
representative for Central Council Tlingit & Haida. Both 
positions offered one-year terms. The Youth Advisor/
Representative opportunities offered a chance for restorative 
reflection on the meaning of life and leadership. They provided 
me a strong foundation for an exceptionally bright future.
    All of these opportunities have developed my mission to 
foster enlightened leadership, open-minded dialog, and to 
encourage more youth to get involved in their communities at an 
earlier age. As a result, these programs will potentially lead 
to more youth involvement at the state level.
     I firmly believe that every Tribe, Native organization and 
Native corporation should offer youth representative positions 
to the youth in their community to keep them engaged and 
educated about what is going on. More leadership roles for the 
youth will instill hope and confidence and suicide rates will 
start to drop dramatically.
    As the Central Council Tlingit & Haida Youth 
Representative, I joined Southeast Alaska Regional Health 
Consortium 1 is 2 Many Suicide Prevention Task Force in early 
2010. As the youngest member of the task force, it became quite 
apparent that we needed to engage more youth to be part of the 
solution in our efforts to prevent suicide.
    Reflecting on my experiences, I was inspired to create the 
Youth Ambassador Program to offer opportunity and exposure to 
high school students throughout Southeast Alaska. The task 
force endorsed the Youth Ambassador Program in January 2011 and 
SEARHC hired me to implement the program in February 2011. 
Through this program, students will have the opportunity to 
attend meetings, work with a member of the task force as their 
mentor and encourage them to be strong, positive advocates in 
their community. The Youth Ambassadors Program was officially 
launched this August and there are currently six inaugural 
youth ambassadors representing Southeast Alaska. Teressa 
Baldwin is actually one of our inaugural youth ambassadors. She 
represents Sitka, even though she's originally from Kotzebue, 
she attends high school in Mt. Edgecumbe and I'm very, very 
proud of her and happy to have her as one of our youth 
ambassadors.
    Shante Hudson represents Metlakatla. Patricia Jackson 
represents Petersburg. Jamie Paddock represents Juneau. Anthony 
Edenshaw represent Hydaburg and Naomi Huestis represents Thorne 
Bay. We would like to see representation from every community. 
We are working to highlight the opportunities the program 
offers to encourage more youth to get involved.
    SEARHC is currently working to locate that money to fund 
the program in future years. This year, we have been seeking 
financial support from the schools, Tribes, and corporations in 
Southeast to help make the program a success this first year. I 
am interested, not only in the prevention of suicide, but also 
in enhancing the participants' skills, while developing new 
ones and continuing to expand an established network of youth 
leaders. Bringing suicide prevention awareness to the youth 
populations is dependent on targeting youth that are already 
positive role models. We need to create an environment where we 
can hone the present abilities of the strong youth leaders, as 
well as teach them new skills. This will develop an active 
network of youth leaders. An example of such an established 
network is the Teck John Baker Youth Leaders Program, also 
known as Natural Helpers.
    The leaders are anonymously chosen by their peers through a 
secret ballot. The end result was a variety of students from 
over-achievers to dope-smokers to bullies, which proves that 
leadership can be taken seriously when youth are an integral 
part of the solution.
    I believe the Youth Ambassador Program will influence the 
youth, alongside the Natural Helpers Program. I would like to 
see the Natural Helpers Program expand into every rural 
community. I will advocate the Youth Ambassador Program to be 
implemented in all 18 communities in my region and I would 
eventually like to see the program utilized statewide through 
the state Suicide Prevention Council.
    The Council could select two youth ambassadors from every 
region in Alaska to work with the council members the same way 
the Southeast Alaska youth ambassadors are working with the 1 
is 2 Many Task Force. This would result in a total of 12 youth 
ambassadors working with the council and I believe this would 
help to keep the council more engaged with what is happening in 
all six regions in Alaska.
    Self-sufficiency and personal integrity must be restored to 
our people. It is time we give Natives a hand up and not a 
handout. Providing more leadership roles will encourage Natives 
to become a part of the solution leading to healthier 
lifestyles. Please work with me to achieve these goals. Let us 
encourage our youth to strive and succeed in every way 
possible.
    Through this course of work, we will watch them become more 
enlightened in their work and enriched in their lives. Thank 
you, Senator Murkowski, for allowing me to testify today.
    [The prepared statement of Ms. Gregory follows:]

  Prepared Statement of Megan Gregory, Community Project Coordinator, 
 Southeast Alaska Regional Health Consortium; Board Member, Center for 
                         Native American Youth
    The honorable Chairman Akaka, Senator Murkowski, and Members of the 
Committee. I would like to express my deep appreciation for inviting me 
to testify before the Senate Committee on Indian Affairs Oversight 
Hearing on ``H.O.P.E for the Future: Helping our People Engage to 
Protect Our Youth.'' I would like to thank you for holding this 
important hearing and inviting me to testify before this Committee to 
share my vision for a healthy and successful future for all Native 
youth.
    Suicide in Indian Country is a significant behavioral health issue 
affecting Alaska Natives and American Indians (AN/AI). The suicide 
rates for AN/AI's are even more alarming than the rates for the general 
population, at 1.7 times higher than the U.S. rate for all races and 
ages. It is the second leading cause of death for Indian youth between 
the ages of 15 to 24 (3.5 times higher than the national average). 
Alaska Natives die by suicide at rates four times the national average. 
For Alaska Native males, the suicide rate is six times higher than the 
national average, with teen suicide rates almost as high--nearly six 
times the rate of non-Native teens. AN/AI males ages 15-24 are at 
highest risk for suicide completion. The group at the highest risk for 
suicide attempts is females of the same ages. This indicates the 
prevalence of the same troubling risk factors in the lives of young 
Natives--drug and alcohol use, violence, trauma, abuse, and depression 
and other mental illness. In addition, young people between ages 15-24 
make up 40 percent of all suicide deaths in Indian Country.
    These high suicide rates cause our society to reel with devastation 
in our families and our communities. We have a great deal of work ahead 
of us, because all Alaskans deserve a better life. We as Alaska Natives 
and American Indians need to work together to keep building prosperity 
on those good things, and build on the wonderful people that make 
Alaska and Indian Country such a beautiful place to live.
    I believe providing more youth leadership roles is an important 
step to help prevent suicide in Alaska. I was fortunate to participate 
in various leadership roles that have lead me to work in my community, 
my region, state, and eventually at the national level. In 2005, I was 
fortunate to intern for Senator Lisa Murkowki in Washington, D.C. for 
four weeks. It was my first experience spending time on the east coast, 
and her internship inspired me to stay involved in Alaska politically. 
In 2009, I had the opportunity to serve as the inaugural Youth Advisor 
for Sealaska Corporation, and in 2010 I served as the Youth 
Representative for the Central Council Tlingit & Haida Executive 
Council. Both positions offered one year terms. The Youth Advisor/
Representative opportunities offered a chance for restorative 
reflection on the meaning of life and leadership. They provided me a 
strong foundation for an exceptionally bright future.
    Central Council Tlingit and Haida encourages all Youth 
Representatives to attend the National Congress of American Indians 
(NCAI) Conferences. I always looked forward to NCAI, and was fortunate 
to attend the NCAI Tribal Leader Summit. Through this opportunity I 
learned about Senator Dorgan's plan to establish the Center for Native 
American Youth at the Aspen Institute, which is a policy program 
dedicated to combating the challenges facing Native American Youth. 
After hearing about the Center for Native American Youth I contacted 
many people trying to obtain further information about how I could get 
involved, Senator Dorgan heard about my involvement with suicide 
prevention in Alaska and asked me to serve as a Youth Board Member. All 
of these opportunities have developed my mission to foster enlightened 
leadership, open-minded dialogue, and to encourage more youth to get 
involved in their communities at an early age. As a result these 
programs will potentially lead to more youth involvement at the state 
level. I firmly believe that every Tribe, Native Organization, and 
Native Corporation should offer a youth representative position to the 
youth in their community to keep them engaged and educated about what 
is happening. More leadership roles for youth will instill hope and 
confidence, and suicide rates will start to drop dramatically.
    As the Central Council Tlingit & Haida Youth Representative I 
joined the Southeast Alaska Regional Health Consortium (SEARHC) 1 is 2 
Many Suicide Prevention Task Force in early 2010. As the youngest 
member of the task force, it became quite apparent that we needed to 
engage more youth to be a part of the solution in our efforts to 
prevent suicide. Reflecting on my experiences I was inspired to create 
the Youth Ambassador Program to offer opportunity and exposure to high 
school students throughout Southeast Alaska. The task force endorsed 
the Youth Ambassador Program in January 2011, and SEARHC hired me to 
implement the program in February 2011. Through this program students 
will have the opportunity to attend meetings, work with a member of the 
task force as their mentor, and encourage them to be strong positive 
advocates in their community.
    The Youth Ambassador Program was officially launched this August, 
and there are currently six inaugural Youth Ambassadors representing 
Southeast Alaska. Teressa Baldwin originally from Kotzebue represents 
Sitka because she attends Mt. Edgecumbe High School and is also the 
current State Suicide Prevention Council Youth Representative, Shante 
Hudson represents Metlakatla, Patricia Jackson represents Petersburg, 
Jamie Paddock represents Juneau, Anthony Edenshaw represents Hydaburg, 
and Naomi Huestis represents Thorne Bay. We would like to see 
representation from every community. We are working to highlight the 
opportunities the program offers to encourage more youth to get 
involved. SEARHC is currently working to locate grant money to fund the 
program in future years. This year, we have been seeking financial 
support from the schools, Tribes, and corporations in Southeast to help 
make the program a success this first year.
    I have recently joined the University of Alaska-Fairbanks 
Cooperative Extension Service Advisory Council to take a more active 
role in learning about horticulture and the 4H Program throughout the 
State of Alaska. One of my main goals is to incorporate community 
gardening in the Youth Ambassador Program. It is time we get back to 
our roots, and I am convinced community gardening is a solution to many 
of the problems that currently challenge Alaska Natives and American 
Indians. We must look at all aspects to prevent suicide and promote a 
healthier way of life. Please keep in mind at nearly 17 percent, 
American Indians and Alaska Natives have the highest age adjusted 
prevalence of diabetes among all U.S. racial and ethnic groups.
    The Youth Ambassadors are going to take the lead on advocating for 
their school to have a green house for a garden to serve the fruits and 
vegetables grown at lunch throughout the school year. Eventually it is 
my hope that this initiative will encourage every household to start 
their own garden. Gardening will benefit the residents of all 
communities because it is a healthy activity. It promotes positive 
social interaction, provides possible economic growth, and encourages 
people to eat more fruits and vegetables which will lead to a healthier 
diet. Many communities in rural Alaska receive their produce by barge, 
selection is limited, cost is outrageous, and less nutritious 
alternatives are often more affordable. Unfortunately the affordable 
alternatives lead to obesity, poor self image, lower self-esteem, and 
poor health. It is time to promote sustainability and resilience 
through community gardening opportunities. I believe that the Senate 
Committee on Indian Affairs should work with all housing authorities to 
incorporate green houses and areas to grow gardens with every new home 
that is built to encourage people to start their own vegetable gardens. 
I hope you will work with me to promote community gardening throughout 
all of Alaska. A healthier body leads to a healthier mind.
    Next, I would like to emphasize the importance of utilizing the 
media to promote suicide prevention throughout Indian country. I am 
very impressed by the Montana Meth Project and their research-messaging 
campaign. The messaging campaign graphically portrays the ravages of 
meth through television, radio, billboards, and Internet ads. It has 
gained nationwide attention for its uncompromising approach and 
demonstrated impact. As of today, the Montana Meth Project has expanded 
into Arizona, Colorado, Georgia, Hawaii, Idaho, Illinois, and Wyoming. 
In 2005 Montana was ranked #5 in the nation for meth abuse, and now 
ranks #39. Teen meth use has declined by 63 percent, and adult meth use 
has declined by 72 percent in Montana. I hope that the Senate Committee 
on Indian Affairs uses this example to take the same approach to engage 
the media in spreading suicide prevention awareness and volunteerism. 
Volunteerism is becoming prevalent with the youth, and if we could 
encourage people to dedicate a few hours of their time every week to a 
good cause we would start to see a lot more progress in Alaska.
    I am interested not only in the prevention of suicide, but also in 
enhancing the participants skills while developing new ones, and 
continuing to expand an established network of youth leaders. Bringing 
suicide prevention awareness to the youth populations is dependent on 
targeting youth that are already positive role models. We need to 
create an environment where we can hone the present abilities of these 
strong youth leaders as well as teach them new skills. This will 
develop an active network of youth leaders. An example of such an 
established network is the program Youth Leaders also known as Natural 
Helpers. The leaders are anonymously chosen by their peers through a 
secret ballot. The end result was a variety of students from 
overachievers to dope-smokers to bullies, which proves that leadership 
can be taken seriously when youth become an integral part of the 
solution.
    I believe the Youth Ambassador Program will influence the youth 
alongside the Natural Helpers Program. I would like to see the Natural 
Helpers Program expand into every rural community. I will advocate the 
Youth Ambassador Program to be implemented in all eighteen communities 
in my region, and I would eventually like to see the program utilized 
statewide through the State Suicide Prevention Council. The Council 
could select two Youth Ambassadors from every region in Alaska to work 
with the council members the same way the Southeast Alaska Youth 
Ambassadors are working with the 1 is 2 Many Task Force. This would 
result in a total of twelve Youth Ambassadors working with the Council, 
and I believe this would help to keep the Council members more engaged 
with what is happening in all six regions.
    It is also important to encourage exercise at an early age. Last 
spring I volunteered as a head coach for the international program 
called Girls on the Run. The goal of Girls on the Run is to empower 
girls ages 8-14 to find strength, courage, self-respect from within, 
and learn how to draw upon these attributes as they face the challenges 
of adolescence and adulthood. This program instills self-esteem and 
self-respect through physical training, health education, life skills 
development, and mentoring relationships. In Juneau, the Aiding Women 
in Abuse and Rape Emergencies (AWARE) Shelter is also working on 
developing a similar program for boy's ages 8-14 called Let Us Run. I 
am going to work with the Youth Ambassadors to ensure their schools 
offer these programs in southeast. The programs are free after school 
programs for any student that would like to participate, and it is 
important we make these programs available in communities in need of 
afterschool programs. Today AWARE receives a limited amount of grant 
money for Girls on the Run to train coaches, and provide supplies to 
every school in southeast. Another way AWARE raises money for Girls on 
the Run is through a program called Solemates. During my time as a 
Girls on the Run coach I also decided to become a Solemate. The way 
Solemates works is the Girls on the Run Program provides a fundraiser 
website through active.com for you to encourage your family, friends, 
and colleagues to submit their donations to. On this website you can 
share information about the race you're training for, share photos, and 
people can make donations. The website will also list how much money 
you have collected, and how much more you need to reach your goal. I 
found that volunteering my time as a coach, dedicating my time and 
energy to raise money, and training for a half-marathon was life 
changing for me. I connected with youth in a way I had never 
experienced before, I was determined to run consistently all summer 
since I was committed to a half-marathon, and I raised awareness about 
an amazing after school program.
    Exercise creates balance and can be therapeutic. It's a healthy 
stress reliever, and it keeps the mind sharp and the body in shape. 
Even after I finished the race I signed up for as a Solemate, I was 
inspired to keep running. Volunteering my time helped me to realize 
just how fast and far I was capable of running, and how good it felt. 
At the end of the summer I ran 14 miles for the Klondike Road Relay, 
and just recently ran another half-marathon a few weeks ago. An 
extremely inspirational person to me is Dirk Whitebreast who is also a 
fellow board member for the Center for Native American Youth. In 2003, 
Dirk suffered the loss of his 18 year old sister, Darcy Jo Keahna, to 
suicide. To cope with the loss of his sibling Dirk became a runner to 
become a healthy and strong leader for his family, Tribe and community. 
Dirk decided to share his experience and promote running with Native 
youth by running 10 marathons in one month to raise money for the 
Center for Native American Youth. Dirk did this to honor his sister and 
promote healthy living to the Native American community. He wanted to 
set an example for commitment, motivation, hard work and leadership for 
all Native American Youth. Dirk recently finished running his tenth 
marathon this month. Dirks 262 mile challenge is a symbol of strength 
and endurance for all Alaska Native and American Indians. Dirk did a 
phenomenal job raising awareness about suicide prevention, and creating 
hope for Native youth.
    Self-sufficiency and personal integrity must be restored to our 
people. It is time we give Natives a hand up, and not a hand out. 
Providing more leadership roles will encourage Natives to become a part 
of the solution leading to healthier lifestyles, diets, exercise and a 
well rounded society.
    Please work with me to achieve all of these goals! Let us encourage 
our youth to strive and succeed in every way possible, through this 
course of work, we will watch them become more enlightened in their 
work and enriched in their lives. Chairman Akaka and the Committee, I 
am grateful for the opportunity to testify. Thank you for allowing me 
to present testimony on our efforts to promote suicide prevention 
today.

    Senator Murkowski. Megan, thank you, and for your 
leadership, thank you.
    Ms. Gregory. I'm grateful to be here. Thank you.
    Senator Murkowski. Evon Peter.

  STATEMENT OF EVON PETER, DIRECTOR, MANIILAQ WELLNESS PROGRAM

    Mr. Peter. Thank you Congressional Committee and I'm really 
happy to be here today. It really is an honor for me to be able 
to share some of my words and thoughts. I truly care so much 
for our people, our well being, and I hope that I honor all of 
you, our Native people that are in the audience, with the words 
that I share, all your stories because it's a unique 
opportunity to be one of the four that get to sit here to share 
our words in this way and to testify.
    I want to also acknowledge all those who came before me on 
this path of wellness and healing for our indigenous peoples. 
They paved the way for us to follow as younger people and they 
encouraged and guided us and continue to inspire us to continue 
to take these sorts of stands and have our voices heard, even 
though sometimes that can feel overwhelming.
    I want to share my story and the story of my family because 
I feel like it's reflective of so many of the stories of Alaska 
Native people, and you know, my culture--what we know best is 
what we've experienced in our life and so that's what I want to 
share from today. The real story takes about two days to 
explain to do this topic justice, but I'm going to do the under 
10-minute version.
    So in the early days of Western colonization, our peoples 
were considered less than human. It was considered, both 
morally acceptable and legally sanctioned that our lands and 
resources can be taken and as Native peoples, we would be 
pushed to the wayside. Those were the days of my 
greatgrandfather. Between his generation and that of my 
grandmother's generation, Alaska Native people began to 
experience drastic changes in their life. The Federal 
Government was yet to provide Alaska Native people with a right 
to vote or citizenship in our own lands and the Federal 
government had embarked on a policy of assimilation.
    That policy of assimilation was aimed at eradicating who we 
were as a people. Our grandparents were punished for who they 
were, as many schools and churches worked to push our 
languages, cultures, songs, dances, spiritual understandings, 
world view, and philosophies into the past.
    My grandmother lost both of her parents to diseases around 
that same time, one of a few epidemics that had taken the lives 
of thousands of Alaska Native people during that same era.
    She was adopted into a neighboring Tribe upriver and when 
she arrived there, she began to become sexually abused on a 
regular basis by men in the community. She later expressed to 
us in the family that it was not until adulthood that she 
realized that this was not the normal childhood that others 
were experiencing.
    This later weighed heavily on her relationship with my 
grandfather and their ability to raise my aunts, uncles, and 
mother in a secure and loving way. My mother was sent away at a 
very young age, maybe five or six years old to California to 
get a better Western education, before that, having been raised 
traditionally on the land, just utilizing our language and our 
way of life.
     At the time, this was highly encouraged and sometimes 
forced during a time period of Federal government policies that 
is now widely recognized as an era of Tribal termination and 
forced assimilation. Like many Alaska Native people of my 
grandmother and mother's generation, my mother endured 
emotional, psychological, spiritual, cultural, and physical 
duress of the rapid transition from a traditional way of life 
to the 21st Century city life.
    My mother's generation was born into a world that 
immediately told her, both in popular culture and government 
policies, that she must change who she is. By the time I was 
five years old, I'd lost my father to divorce and did not see 
him again before he died.
    I was sent to my grandmother in Gwichyaa Shee, which is 
known as Fort Yukon, and to my grandfather in Vashraii K'oo, 
which is known as Arctic Village. My mother felt a calling that 
I should be raised traditionally. In the following years until 
I was a teenager, I moved from village to village and sometimes 
back into the urban ghettos of Anchorage over in Mountain View 
and Karluk.
    In those years of my life, I faced hunger, sexual abuse, 
bullying, neglect, racism, confusion, exposure to heavy alcohol 
and substance abuse, and suicidal ideation, which started at 
the age of 10 when I once held a knife to my throat for two 
hours.
     My mother eventually brought my brothers, my sister, and I 
back together under one roof in the low income community of 
Fairbanks. We ate food bank rations. I couldn't stand that 
stuff and I hunted ptarmigan and rabbits with my brother in the 
willows around our apartment until one time the police told us 
we can't hunt in the city no more.
    My mother by then had made courageous changes in her life 
through her own healing process by that time. She began to 
implant the expectation of success into the minds of us 
children and kept our home free of alcohol and drug abuse. 
There is no one that I respect more than my mother. She opened 
the door to this path that I now follow.
    It was during this same time that my generation of Alaska 
Native youth, in particular us young men, began to die by 
suicide at an alarming rate. I remember being brought into a 
private room at Ryan Junior High School with about 12 other 
Alaska Native boys where we were lectured by a non-Native about 
how we were far more statistically likely to go to jail or die 
by the time we were 25 than to finish high school. Those were 
the early days of behavioral health intervention with the 
attempts made to scare us into following a different path. 
Within a year, one of us died by suicide that was in that room. 
In the next six years, only two of us finished high school and 
I was not one of them.
    The rest of us started to abuse alcohol and drugs during 
the same time period and some of those that were in that room 
are still self-medicating their pain and suffering to this day, 
using drugs and alcohol to make life feel bearable to them.
    I was lucky to survive my teenage years. Then at 17 years 
old, I had an epiphany. My consciousness awakened in a new way. 
I realized that I was not doing okay and when I looked around 
me, neither were many of the Native people. I thought about how 
I would one day become a father. I have four children now--and 
that I had the power to choose the life path I would walk for 
my children. I knew that transforming my life would require a 
great deal of courage because I would need to acknowledge and 
face my problems, but I chose to heal and develop myself as a 
person so that I could be there for my family and be there for 
my people.
    My first steps after finding this clarity were 
interrelated. I needed to pursue education, both Western and 
traditionally in my culture, and I had to investigate the 
history of what our people went through that led us to our 
current condition.
    It did not take long for me to find other young Alaska 
Natives having the same interest. Together, we began what has 
become my lifelong work; the pursuit of truth, healing, 
knowledge, and self-determination among Alaska Native peoples. 
The emphasis of my early work was on youth leadership 
development with the first gathering that we hosted with two 
other Inupiaq young women 16 years ago when I was still a 
teenager. As we honed this process and approach to leadership 
development among youth, we realized that the early first step 
of healing was necessary to create a confidential space without 
judging each other for us to be able to share what we had 
really been through in life.
    For most young Alaska Native people, that kind of space has 
not yet been created. For most, it is like being able to 
breathe freely for the first time, to sit in a safe environment 
among Alaska Native peers and realize that we are not alone in 
feeling the pain, pressure, and loss in our generations, to 
have our feelings affirmed and have people acknowledge that 
much of what is happening on a social, political, and economic 
level is not okay and that anger, frustration, confusion, and 
depression are natural emotional responses to the experiences 
that we are living with as Alaska Natives today.
    There are natural stages that follow as we deepen our 
awareness of what our past generations had to endure and we 
most often feel forgiveness and compassion toward our parents 
and grandparents as we realize that they, too, must have 
suffered tremendously in their lifetime due to the great deaths 
from epidemics, boarding schools, racism, assimilation, abuse, 
and other traumatizing circumstances. It is not an excuse for 
unhealthy or negative behaviors, but it provides for insight 
into how it came to be.
    In sharing our stories with one another in a healthy 
setting, we began the process of reweaving the social, 
political, and cultural fabric that once sustained our peoples 
for thousands of generations. We found support, encouragement, 
and guidance from each other and began making a commitment to 
ourselves to no longer live life as a victim, but to face our 
personal challenges and those of our people as compassionate 
warriors.
    Three years ago, from several regions in Alaska, our people 
and elders asked me to expand the focus of my efforts to 
prevent suicide. Since that time, I have worked with a number 
of compassionate warriors to develop approaches to suicide 
prevention and healing that are rooted in the traditional 
values, knowledge, and practices of our people and we continue 
to learn, grow, and make improvements in these approaches.
    I believe that we have the capacity and the knowledge in 
our communities to address the issues surrounding suicide. 
However, it requires people in each community to take a stand 
by cleaning up their own life and then taking the risk to apply 
health pressure within their families and community. In the 
past, our elders held such a deep personal integrity and 
respect among our people that they were able to be this healthy 
foundation for our villages. This is something that we need to 
return to, but which can only happen if enough people begin to 
hold themselves to a good self-disciplined path in life.
    The research shows that Alaska Native people are much more 
likely to go to our peers and family members than to a Western 
based counselor, therapist, or psychologist when experiencing 
depression or suicidal ideation. This makes sense because we 
know that other Alaska Natives will understand what we are 
talking about when we express our feelings about the 
experiences we are having as Alaska Natives.
    In these past few years since I've taken up this cause, I 
have listened to the stories and witnessed the pouring of tears 
from hundreds of Alaska Native youth and young adults. I can 
attest to the fact that the current level of suffering and pain 
being felt by Alaska Native people today is staggering.
    The path to our recovery will require several factors to be 
acted upon simultaneously. All are rooted in the need for 
expanding control over our destiny as Alaska Natives through 
self-determination. Self-determination is something that we 
must take upon ourselves to practice as Alaska Natives, but it 
is also something that the Federal and state governments can 
choose to support or not.
    This kind of decolonization process is linked to decreased 
rates of suicide and substance abuse in Tribal communities. As 
Alaska Natives, we must step into leadership and 
responsibility. We must lead by example, ask ourselves if our 
behaviors and decisions are ones that we would feel good to 
have our children follow.
    We must be honest with our families, our community members, 
and ourselves. We must recognize and acknowledge the problems 
that we have because that is the first step to being able to 
address them. We must demonstrate the love for our children, 
family, and people through our actions. The solution is in 
every one of us. We just have to believe it is possible and 
then we will make it so. Yet, we must also have patience for 
ourselves and those around us, because the healing process 
takes time.
    I believe that you, the Senate Committee on Indian Affairs 
and the Federal Government, have a key role in helping build 
better futures for Alaska Native people. In the last 1990s, I 
took a trip upriver from Fort Yukon to another Gwich'in village 
that happens to be in Canada, called Old Crow.
    While there, I was astonished to see they had running 
water, electricity, a solidly recognized Tribal government that 
was well supported by the Canadian government. They were in 
control of their local school and were in the midst of a 
decade-long treaty negotiation over land, resources, rights, 
and royalties to developments in their traditional territories.
    It was one of the first times I clearly realized that of 
the billions of dollars annually taken from our traditional 
lands in Alaska in the form of oil, salmon, mining and timber, 
that we were still living in third-world conditions compared to 
our cousins upriver.
    Our Tribal governments have never been afforded a treaty 
negotiation with the United States government and our people 
have not truly ever been afforded the opportunity to decide for 
ourselves how we would like to best organize ourselves for 
self-governance and economic development.
    Instead, the United States passed the Alaska Native Claims 
Settlement Act of 1971 as an experiment in modern colonization 
that has reaped economic benefit for our people, but also a 
great deal of division, cultural degradation, confusion, and 
frustration among Alaska Native Tribes and people.
    In addition, ANCSA extinguished our indigenous right to 
hunt and fish, despite our people being arguably the most 
dependent in North America on that way of life, but more 
directly related to the behavioral health needs, the Federal 
government provides funding through IHS that is restricted to 
meet behavioral health service standards that were not 
developed to meet the needs of our people. We may not have all 
the solutions yet, but there is no doubt that we will be more 
effective with the freedom to develop and implement our own 
services based on our intimate understanding of the issues that 
our people are facing. Lifting restrictions on Federal funding 
for behavioral health services would lift the burden of 
administrative time required to meet Western standards and 
enable us to provide more effective services to Alaska Native 
communities. We would benefit greatly from an expanded autonomy 
and the use of current and recurring Federal and state 
behavioral health dollars.
    Furthermore, I would like to suggest that an equal, if not 
greater scale of investment that was put into eradicating our 
cultures and assimilating Alaska Native peoples into Western 
ways, be invested into healing, wellness, and leadership 
development to help us recover.
    There are a great many factors that lead into the number of 
suicides in Native communities, such as high unemployment 
rates, lack of adequate housing and limited control of our 
education systems that our failing our children at an alarming 
rate.
    As representatives of our Federal Government, you have a 
great opportunity and responsibility to ensure initiatives that 
usher greater self-determination for Alaska Native peoples so 
that we may further enhance our work toward a holistic healing 
and recovery of our people. I thank you, again, for allowing me 
to share some of my experiences and I wish you and everybody 
here and everyone who listens to us later, the best in their 
path in life. I do have a lot of hope for our people and I do 
believe that a lot of healing is possible for, not only Native 
people, but non- Native because this issue expands globally. So 
thank you very much.
    [The prepared statement of Mr. Peter follows:]

 Prepared Statement of Evon Peter, Director, Maniilaq Wellness Program
    Shalak naii. Dzaa gihshii geenjit shoo ihlii. Vahsraii K'oo gwatsan 
ihlii.
    I give thanks for being invited to share with this Committee and 
our People. It is humbling to be asked to share my experience and 
understandings about the tragedy of suicide, which has in someway 
affected nearly every Alaska Native person today. It is imperative that 
we proactively address this issue and its related contributing factors 
with conviction, so I am grateful to help raise awareness in this way. 
I also give thanks to all those leaders who came before me, breaking 
trail on this path to healing and wellness, many of whom are still with 
us today working diligently within their families and communities. It 
takes great courage and commitment to acknowledge that we have problems 
and to face them with honesty, love, and determination. We can no 
longer afford to live in denial about the daunting reality many of our 
people face on a daily basis. We can no longer afford to live in fear 
of the consequences if we choose to raise our voices and take a stand.
    Within my culture, we speak from personal experience because that 
is the story we know best. Our stories shape who we are and reflect the 
learnings we have garnered about life. They also enable us to identify 
our relationships to one another. Additionally, in order to fully 
address the complexity of suicide in Alaska Native communities, time 
must be taken to briefly detail a history of colonization. This history 
may not initially seem relevant, yet is inextricably connected to the 
breakdown of the cultural, political, spiritual, and social fabric that 
sustained Alaska Native peoples for thousands of years prior to western 
colonization.
    Research has shown that colonization is one of the single largest 
factors driving the abnormally high suicide rates within an Indigenous 
population (M. Chandler & Proulx, 2006; M. J. Chandler & Lalonde, 1998; 
L. J. Kirmayer MD, Boothroyd Lucy J., & Hodgins Stephen, 1998; L. 
Kirmayer, Fletcher, & Boothroyd, 1998; L. J. Kirmayer, Brass, & Tait, 
2000; Kral, 2003; Kral, 2009; L. Wexler, 2009; L. Wexler, 2006). 
Therefore, in order to fully engage in the battle against suicide in 
Alaska Native communities it is crucial to ask a couple questions: Just 
what is colonization? And how has the colonization of Alaska impacted 
Alaska Native populations historically and in the current time? I will 
attempt to answer parts of these questions through sharing with you 
part of my story, how I am here before you today.
    I was born to a Gwich'in and Koyukon mother and a Jewish father. I 
lost my father to divorce when I was five and I did not see him again 
before he died, for these reasons I was raised as a Gwich'in person 
from my earliest memories. But my story begins further back; my 
grandmother was adopted at a young age after losing her parents to 
disease--one of several diseases that had caused a great number of 
deaths among Alaska Native people between 1870-1950. As a child, 
following the adoption, my grandmother was sexually abused by men in 
her new community and she did not realize until adulthood that this was 
not a normal part of what childhood was supposed to be. This later 
weighed heavily on her relationship with my grandfather and their 
ability to raise my aunts, uncles, and mother in a secure and openly 
loving way.
    My grandparents chose to send my mother away at a very young age to 
California to receive a better western education. At the time this was 
highly encouraged and sometimes forced during a time period of Federal 
Government policies that is now widely recognized as an era of Tribal 
termination and forced assimilation. It was in this same time period 
that the territory of Alaska was successfully desegregating; in our own 
homelands signs that read ``no dogs, no Natives'' were finally being 
taken down from business windows. Few of our Alaska Native people were 
western educated at that time. Stories of the treatment of American 
Indians in the continental United States made it clear to our leaders 
that we would need to learn the western ways better to be able to 
defend our rights to our homelands and to our way of life against a 
dominant culture that had already shown our people great disregard. My 
mother was lucky to return to Alaska after only three years and she 
remained home until leaving again for high school on the east coast of 
the lower forty-eight.
    Like many Alaska Native people of my grandmother and mother's 
generation, my mother endured the emotional, psychological, spiritual, 
cultural, and physical duress of a rapid transition from a traditional 
way of life on the land to the twenty-first century ``city life''. 
Federal policy and practices, implemented through schools and some 
churches, enforced the assimilation of Native peoples through the 
direct and indirect eradication of rights, language, culture, and 
philosophy. My mother's generation was born into a world that 
immediately told her, both in popular culture and in government 
policies, that she must change.
    The policies and practices of colonization brought with it the 
social illnesses of sexual abuse, alcoholism, and neglect, which can be 
passed from one generation to the next. This is often referred to as 
intergenerational trauma, which equates to an experience of post-
traumatic stress disorder among many Alaska Native people. In many 
ways, my mother's generation was born with the scars of assaults 
carried out in previous generations of our ancestry as the colonizing 
culture attempted the eradication of who we are and the undermining of 
our control over our destiny as a people.
    These multiple layers of stress and pain associated with 
generations of assault, abuse, and loss are all too easily numbed with 
alcohol and drugs. Yet drugs and alcohol do not heal the pains, they 
amplify it. Alaska Native communities have seen an epidemic of drug and 
alcohol abuse, which has resulted in continuations of the cycles of 
social illness and suicides. My family has not been immune to this; my 
story, until recently, was not an exception to this cycle.
    Shortly after my father left we were living in Anchorage, but my 
mother felt a calling to send me north to my grandmother in Gwichyaa 
Zhee (Fort Yukon) and my grandfather in Vashraii K'oo (Arctic Village). 
She felt it was important that I be raised traditionally among our 
people--the reverse of her experience being assimilated into the 
western ways. The following years, until I was a teenager, I moved from 
village to village and sometimes back into the urban ghettos of 
Anchorage, I lived with grandparents, uncles, relatives, and my 
immediate family. Within those times, I faced hunger, sexual abuse, 
bullying, neglect, racism, confusion, exposure to heavy alcohol and 
substance abuse, and suicidal ideation, which started at the age of ten 
when I once held a knife to my throat for two hours.
    Simultaneously, I was immersed in an ``Indigenous worldview,'' I 
received a traditional education from the land, animals, and people. 
All of this shaped my understanding of what it means to be Gwich'in, to 
be human. I had to grow up fast and my grandmother later reflected to 
me as an adult, that she knew when I was thirteen years old that I was 
already an independent young man, admittedly one who was unconsciously 
broken, hurting, and naive.
    It was then that my mother moved my brothers, sister, and I all 
back together under one roof into the low-income area of Fairbanks. We 
ate food bank rations and I hunted ptarmigan and rabbits in the willows 
with my brother near our apartments, until the police told us ``no more 
hunting in the city.'' My mother had made courageous changes in her 
life through her own healing process by that time. She began to implant 
the expectations of success into the minds of us children, and kept our 
home free of alcohol and drug abuse. There is no one I respect more 
than my mother, her strength and determination demonstrated to us what 
was possible in the face of great adversity. She opened the door to 
this path that I now follow.
    It was during this same time that my generation of Alaska Native 
youth, in particular young men, began to die by suicide at an alarming 
rate. I remember being brought into a private room at Ryan Jr. High 
School with about twelve other young Alaska Native boys, where we were 
lectured by a non-Native about how we were far more statistically 
likely to go to jail or die by the time we were twenty five years old 
than to finish high school. It was the early days of behavioral health 
intervention, with attempts made to scare us into following a different 
path. Within a year, one of us died by suicide and, over the next six 
years, only two finished high school. I was not one of them. The rest 
of us started to abuse alcohol and drugs during this same time period. 
Some are still self-medicating their pain and suffering, using alcohol 
or drugs to make life feel bearable.
    I was lucky to survive my teenage years. Then at seventeen years 
old, I had an epiphany, my consciousness awakened in a new way. I 
realized that I was not doing okay and neither were many of the Native 
people around me. I thought about how I would become a father one day, 
and that I had the power to choose the life path I would walk for my 
children. I knew that transforming my life would require a great deal 
of courage because I would need to acknowledge and face my problems. I 
chose to heal and develop myself as a person so that I could be there 
for my family, and to be there for my people.
    My first steps after finding this clarity were interrelated. I 
needed to pursue my education, both western and traditionally in my 
culture, and I had to investigate the history of what our people went 
through that led us to our current condition. It did not take long for 
me to find other young Alaska Natives who carried similar interests. 
Together we began what has become my lifelong work, the pursuit of 
truth, healing, knowledge, and self-determination among Alaska Native 
peoples.
    The emphasis in my early work was on youth leadership development, 
with the first gathering hosted over sixteen years ago. As we honed the 
process and approach to leadership development over the years, we 
realized early on that a necessary first step towards healing is to 
create a confidential space, without judgment, for people to share what 
they had been through in life.
    For most it is like being able to breathe freely for the first 
time, to sit in a safe environment among Alaska Native peers and 
realize that we are not alone in feeling the pain, pressure, and loss 
in our generations. To have our feelings affirmed and have people 
acknowledge that much of what is happening on a social, political, and 
economic level is not okay and that anger, frustration, confusion, and 
depression are natural emotional responses to the experiences we are 
living with as Alaska Natives.
    There are natural stages that follow as we deepen our awareness of 
what our past generations had to endure. We most often feel forgiveness 
and compassion towards our parents and grandparents as we realize that 
they too must have suffered tremendously in their lifetimes due to 
great deaths from epidemics, boarding schools, racism, assimilation, 
abuse, and other traumatizing circumstances. It is not an excuse for 
unhealthy or negative behaviors, but it provides for insight into how 
it came to be.
    In sharing our stories with one another in a healthy setting we 
began the process of re-weaving the social, spiritual, and cultural 
fabric that once before sustained our peoples. We found support, 
encouragement, and guidance from each other and began making a 
commitment to ourselves to no longer live life as a victim, but to face 
our personal challenges and those of our people as compassionate 
warriors.
    Three years ago leaders from several regions in Alaska asked me to 
expand the focus of my efforts to the prevention of suicide. Since that 
time I have worked with a number of ``compassionate warriors'' to 
develop approaches to suicide prevention and healing that are rooted in 
the traditional values, knowledge, and practices of our peoples. And we 
continue to learn, grow, and make improvements to these approaches. I 
believe that we have the capacity and the knowledge in our communities 
to address the issues surrounding suicide, however it requires people 
in each community to take a stand by cleaning up there own life and 
then taking the risk to apply healthy pressure within their families 
and community. In the past, our elders held such a deep personal 
integrity and respect among the people that they were able to be this 
healthy foundation for their villages. This is something that we need 
to return to, but which can only happen if enough people begin to hold 
themselves to a good self-disciplined path in life.
    Research shows that Alaska Native people are much more likely to go 
to their peers or a family member than to a western-based counselor, 
therapist, or psychologist when experiencing depression or suicidal 
ideations ((1517 Wexler, L. 2008; 829 Wexler, L. 2008; 625 Freedenthal, 
Stacey 2007)). This makes sense because we know that other Alaska 
Natives will understand what we are talking about when we express our 
feelings about the experiences we are having as Alaska Natives. In the 
past few years, I have listened to the stories and witnessed the 
pouring of tears from hundreds of Alaska Native youth and young adults. 
I can attest to the fact that the current level of suffering and pain 
being felt by Alaska Native people today is staggering.
    The path to our recovery will require several factors to be acted 
upon simultaneously. All are rooted in the need for expanding control 
over our destiny as Alaska Natives through self-determination. Self-
determination is something that we must take upon ourselves to practice 
as Alaska Natives, but it is also something that the federal and state 
governments can choose to support or not. This kind of decolonizing 
process is linked to decreased rates of suicide and substance abuse in 
Tribal communities (Chandler & Lalonde, 1998b; Durie, Milroy, & Hunter, 
2009; Fleming & Ledogar, 2008; Kirmayer et al., 1993; Kirmayer & 
Valaskakis, 2009; Kral & Idlout, in press; Wexler, 2009b; White & 
Jodoin, 2004).
    As Alaska Natives we must step into leadership and responsibility. 
We must lead by example; ask ourselves if our behaviors and decisions 
are ones that we would feel good to have our children follow? We must 
be honest with our families, our community members, and ourselves. We 
must recognize and acknowledge the problems we have, because that is 
the first step to addressing them. We must demonstrate the love for our 
children, family, and people through our actions. The solution is in 
every one of us, we just have to believe it is possible and then we 
will make it so. Yet, we must also have patience for ourselves and 
those around us, because the process of healing takes time.
    I believe that you, the Senate Committee on Indian Affairs, and the 
Federal government have a key role in helping build better futures for 
Alaska Native people. In the late 1990's, I took a trip upriver from 
Fort Yukon to another Gwich'in village that happens to be in Canada, 
called Old Crow. While there, I was astonished to see they had running 
water, electricity, and a solidly recognized Tribal government that was 
well supported by the Canadian government. They were in control of 
their local school and were in the midst of a decade long treaty 
negotiation over land, resources, rights, and royalties to developments 
in their traditional territories.
    It was one of the first times I clearly realized that of the 
billions of dollars annually taken from our traditional lands in Alaska 
in the form of oil, salmon, mining, and timber, we were still living in 
third world conditions compared to our cousins upriver. Our Tribal 
governments have never been afforded a treaty negotiation with the 
United States government. Our people have not truly been afforded the 
opportunity to decide for ourselves how we would like to best organize 
ourselves for self-governance and economic development.
    Instead, the United States passed the Alaska Native Claims 
Settlement Act (ANCSA) in 1971 as an experiment in modern colonization 
that has reaped some economic benefit for Alaska Natives, but also a 
great deal of division, cultural degradation, confusion, and 
frustration among Alaska Native Tribes and people. In addition, ANCSA 
extinguished our Indigenous rights to hunt and fish despite Alaska 
Natives being arguably the most dependent of any Indigenous peoples in 
North America to that way of life.
    More directly related to our behavioral health needs, the Federal 
Government provides funding through IHS that is restricted to meet 
behavioral health service standards that were not developed to meet the 
needs of our people. We may not have all the solutions yet, but there 
is no doubt that we will be more effective with the freedom to develop 
and implement our own services based on our intimate understanding of 
the issues our people are facing ((838 Wexler, L. 2011; 1517 Wexler, L. 
2008; 2346 Walters, Karina L. 2009; 1717 Walters, K.L. 2002; 1593 
Duran, E. 1998; 1732 Oetzel, John 2006)). Lifting the restrictions on 
federal funding for behavioral health services would lift the burden of 
administrative time required to meet western standards and enable us to 
provide more effective services to Alaska Native communities. We would 
benefit greatly from an expanded autonomy in the use of current and 
recurring federal and state behavioral health dollars.
    Furthermore, I would like to suggest that an equal, if not greater, 
scale of investment that was put into eradicating our cultures and 
assimilating Alaska Native peoples into western ways be invested into 
healing, wellness, and leadership development to help us recover.
    There are a great many factors that lead into the number of 
suicides in Native communities such as high unemployment rates, lack of 
adequate housing, and limited control over our educational systems that 
are failing our children at an alarming rate. As representatives of our 
Federal Government you have a great opportunity and responsibility to 
ensure initiatives that usher greater selfdetermination for Alaska 
Native peoples so that we may further enhance our work towards a 
holistic healing and recovery of our people.
    Thank you for this opportunity to share from my experience and I 
wish you all the best in your life and work.

          References

    Chandler, M., & Proulx, T. (2006). Changing selves in a changing 
world: Youth suicide on the fault-lines of colliding cultures. Archives 
of Suicide Research, 10, 125-140.
    Chandler, M. J., & Lalonde, C. E. (1998a). Cultural continuity as a 
hedge against suicide in canada's first nations. Transcultural 
Psychiatry, 35(2), 191-219.
    Chandler, M. J., & Lalonde, C. E. (1998b). Cultural continuity as a 
hedge against suicide in canada's first nations. Transcultural 
Psychiatry, 35(2), 191-219.
    Duran, E., Duran, B., Yellow Horse-Davis, M., & Yellow Horse-Davis, 
S. (1998). Healing the american indian soul wound. In Y. Danieli (Ed.), 
International handbook of multigenerational legacies of trauma (pp. 
341-354). New York: Plenum.
    Durie, M., Milroy, H., & Hunter, E. (2009). Mental health and the 
indigenous peoples of australia and new zealand. In L. J. Kirmayer, & 
G. G. Valaskakis (Eds.), Healing traditions: The mental health of 
aboriginal peoples in canada (pp. 36-55). Vancouver, Canada: UBC.
    Fleming, J., & Ledogar, R. J. (2008). Resilience, an evolving 
concept: A review of literature relevant to aboriginal research. 
Pimatisiwin: A Journal of Aboriginal and Indigenous Community Health, 
6(2), 7-23.
    Freedenthal, S., & Stiffman, A. R. (2007). ``They might think I was 
crazy'': Young american indians' reasons for not seeking help when 
suicidal. Journal of Adolescent Research, 22(1), 58-77.
    Kirmayer, L. J., MD, Boothroyd Lucy J., M., & Hodgins Stephen, M., 
MSc. (1998). Attempted suicide among inuit youth: Psychological 
correlates and implications for prevention. Cas J Psychiatry, 43(8), 
816.
    Kirmayer, L., Fletcher, C., & Boothroyd, L. J. (1998). Suicide 
among the inuit of canada. In A. A. Leenaars, S. Wenckstern, I. 
Sakinofsky, R. J. Dyck, M. J. Kral & R. C. Bland (Eds.), Suicide in 
canada (pp. 187-211). Toronto, Canada: University of Toronto.
    Kirmayer, L., Hayton, B. B., Malus, M., Jimenez, V., Dufour, R., 
Quesnay, C., et al. (1993). Suicide in canadian aboriginal populations: 
Emerging trends in research and interventionRoyal Commission on 
Aboriginal Affairs.
    Kirmayer, L. J., Brass, G. M., & Tait, C. L. (2000). The mental 
health of aboriginal peoples: Transformations of identity and 
community. Canadian Journal of Psychiatry, 45(7), 607-616.
    Kirmayer, L. J., & Valaskakis, G. G. (2009). Healing traditions: 
The mental health of aboriginal peoples in canada. Vancouver, Canada: 
UBC.
    Kral, M. J. (2003). Unikkaartuit: Meanings of well-being, sadness, 
suicide, and change in two inuit communitiesNational Health Research 
and Development Programs, Health Canada.
    Kral, M. J. (2009). Transforming communities: Suicide, relatedness, 
and reclamation among inuit of nunavut. Unpublished manuscript.
    Kral, M. J., & Idlout, L. (in press). Community wellness in the 
canadian arctic: Collective agency as subjective well-being. In L. J. 
Kirmayer, & G. Valaskakis (Eds.), Healing traditions: The mental health 
of canadian aboriginal peoples (). Vancouver, B.C.: University of 
British Columbia Press.
    Oetzel, J., Duran, B., Lucero, J., Jiang, Y., Novins, D. K., 
Manson, S., et al. (2006). Rural american indians' perspectives of 
obstacles in the mental health treatment process in three treatment 
sectors. Psychological Services, 3(2), 117-128.
    Walters, K. L., & Simoni, J. M. (2009). Decolonizing strategies for 
mentoring american indians and alaska natives in HIV and mental health 
research. American Journal of Public Health.
    Walters, K., Simoni, J., & Evans-Campbell, T. (2002). Substance use 
among american indians and alaska natives: Incorporating culture in 
an'' indigenist'' stress-coping paradigm. Hyattsville:
    Wexler, L. (2009a). Identifying colonial discourses in inupiat 
young people's narratives as a way to understand the no future of 
inupiat youth suicide. American Indian and Alaska Native Mental Health 
Research (Online), 16(1), 1-24.
    Wexler, L. (2009b). The importance of identity, culture and history 
in the study of indigenous youth wellness. The Journal of the History 
of Childhood and Youth, 2(2), 267-278.
    Wexler, L. (2011). Behavioral health services ``don't work for 
us'': Cultural incongruities in human service systems for alaska native 
communities. American Journal of Community Psychology, 47(1-2), 157-
169.
    Wexler, L., & Graves, K. (2008). The importance of culturally-
responsive training for building a behavioral health workforce in 
alaska native villages: A case study from northwest alaska. Journal of 
Rural Mental Health, 32(3), 22-34.
    Wexler, L., Hill, R., Bertone-Johnson, E., & Fenaughty, A. (2008). 
Correlates of alaska native fatal and nonfatal suicidal behaviors 1990-
2001. Suicide & Life-Threatening Behavior, 38(3), 311-320.
    Wexler, L. (2006). Inupiat youth suicide and culture loss: Changing 
community conversations for prevention. Social Science & Medicine, 
63(11), 2938-2948.
    White, J., & Jodoin, N. (2004). Aboriginal youth: A manual of 
promising suicide prevention strategies. Calgary, Alberta Canada: 
Centre for Suicide Prevention.

    Senator Murkowski. Evon, thank you for your leadership and 
for your story. Tessa Baldwin, welcome.

 STATEMENT OF TERESSA ``TESSA'' BALDWIN, YOUTH MEMBER, ALASKA 
 STATE SUICIDE PREVENTION COUNCIL; FOUNDER, HOPE4ALASKA PROJECT

    Ms. Baldwin. Thank you. Hello, I'm Tessa Baldwin. I'm 
serving as the Youth Representative for the Statewide Suicide 
Prevention Council. I was appointed by Governor Sean Parnell 
this year. I am also one of the Youth Ambassador's for Megan's 
program based on suicide prevention, as well as the head for 
Suicide Prevention for the Alaska Association of Student 
Governments. I also started my own campaign based on suicide 
prevention called Hope4Alaska. Now, I'm 17 years old and I'm 
currently doing all of this to focus on suicide prevention. My 
question to you is; what can you do as an adult to prevent just 
one suicide?
    I'd like to share my own story of how suicide affected my 
life and why suicide prevention is my life's dedication and 
passion. I grew up around suicide. I've seen how it affected 
our communities, our families, and individuals. I, myself, 
witnessed my uncle committing suicide no more than 20 feet away 
from me. I was five. I had people to talk to, but what was 
there to talk about? It affected me greatly, as well as my 
family.
    A few years later, I had seen how suicide affected my 
community when a girl committed suicide a block away. The whole 
community was devastated. We had pictures of her all over AC 
and our yearbook was dedicated to her. It was a huge impact on 
my community.
    At the age of 10, I have known six people that have 
committed suicide. They all mattered to me, but one that 
greatly affected my life was a year ago when my boyfriend 
committed suicide. The point of me bringing up my story is 
because I was told that if I stand up and tell my stories that 
others will be affected and that, right there, is saving lives 
and also because my generation has grown up around suicide. The 
seed of suicide has already been planted. It is our second 
thought of all of our problems. One small thing can trigger our 
willingness to commit suicide. Yes, the studies show many 
things, but it doesn't show what we should do next. It is more 
than just alcohol and drugs and hopelessness. We're losing our 
future and our culture and our children, but this is where we, 
as youth, has stepped up and shared our stories to join 
together and stop suicide, so that future generations will not 
see that suicide is an answer, but a problem.
    We have been working hard getting petitions signed, sharing 
stories, passing resolutions, doing service projects, and 
passing the message on as young people. All we need now is a 
little support. We have many people starting things to prevent 
suicide, but Alaska is so spread out that we have no way to 
know about what each other has been doing and the efforts to 
put against suicide.
    How are we going to fix this? We need people talking to 
each other and listening to each other that we can replicate 
those things that are working. People are being trained 
constantly on suicide prevention, but what good is it if we 
can't utilize it? This is why we need to pull together as a 
state and show others that we can defeat this struggle. I have 
personally started a campaign called Hope4Alaska to spread my 
message, but money is an issue in trying to recognize the signs 
of suicide. It is $2,000 to train 20 people and $1,200 for me 
to share my story to a different community.
    Our state Suicide Prevention Council doesn't have the money 
to fund those that need it. We need to invest in our serious 
problems. Our budget shouldn't be focused or our budget should 
be focused on preventing suicide. There are many things that 
are important to our state, but there's one thing that is 
important to many individuals and that is saving each other.
    So one message that my fellow peers have asked me to state 
and what I want to end with my testimony is, should it cost 
thousands of dollars to save lives, to save our generation that 
is going to pass on our culture, to save our children, or even 
to save our future? Thank you for letting me speak.
    [The prepared statement of Ms. Baldwin follows:]

 Prepared Statement of Teressa ''Tessa'' Baldwin, Youth Member, Alaska 
     State Suicide Prevention Council; Founder, Hope4Alaska Project
    Hello my name is Teressa Baldwin, I am a senior at Mt. Edgecumbe 
High School, but originally from Kotzebue.
    Before I start my speech I would like to acknowledge your teachers, 
these are the people you can talk to if you feel touched by this speech 
afterwards. Thank you!
    I would like to say that I am honored to be here to talk about my 
passion, suicide prevention. I was appointed as the youth 
representative for the statewide suicide prevention council by Governor 
Sean Parnell and I run my own campaign which you are all now a part of 
called Hope4Alaska. I didn't get here today, by just a snap of a 
finger, but because I am one out of four people who have been affected 
by suicide in Alaska.
    I have grown up knowing that suicide exist, my mom's brother 
committed suicide when I was five years old no more than 20 feet away 
from me. I remember waking up one morning to my mom's cries and looking 
out the window to find out that there was an ambulance outside taking 
him away. Of course I was only five years old and didn't know what to 
do, yeah I had people to talk to but I was five. What was there to talk 
about?
    I remember all of my family members being depressed for months, and 
my mom didn't leave the house until she was stable enough to move on. 
Being 5 and having someone take their own life that lived with you was 
only the beginning to my family's problems.
    I have grown up in Rural Alaska where suicides and drugs were a 
problem. In rural Alaska one out of five families experiences a loss 
due to suicide. Yet I didn't think that those people taking their lives 
away thought about how their death would affect someone else. Just as 
my uncle's passing away affected my whole family, a girl in Kotzebue 
committed suicide one block away from my house. She was around the age 
of 17, and she committed suicide the same way my uncle did. She hung 
herself. I was about nine years old, and I remember everyone in 
Kotzebue being affected by her death. I remember the ambulances then 
too, they sped pass my house, and on to the next street where she had 
lived. Of course I didn't know what they were doing. Before the age of 
10, I have known six people that have committed suicide. Now that I am 
here I have to think of all those ten-year olds in Alaska experiencing 
the same thing I did when I was ten.
    I knew suicide was there, but I had no one to talk to and become 
aware of what was going on. When someone passed away everyone would 
just be in grief for a long time, I never was told why people committed 
suicide, and I was just told things happen move on. I felt sad, alone, 
and unsure of my self. I still feel the same way about my past, sad. 
The only difference is I now feel stable with myself, and sure of 
myself. Yeah there are times where I know I need help, and I know I 
need to get up and tell someone that I feel alone. It's like taking 
yourself out of the darkness, and sharing what happened, so that you 
can possibly take someone out of the darkness as well.
    Last year I sat down with two of the most inspirational people, 
Carol Waters and Barb Franks. Both of them are heavy advocates of 
suicide prevention. We talked about morals, and life skills that have 
truly opened doors for my surroundings. The point of this discussion 
was to get more ideas about how to promote suicide prevention. I 
learned that sharing with someone what your know can possibly help 
others as well. The fact that I have hopes and goals can really help 
myself out as well as others and that change is in the air (as Barbara 
Franks says), and there shall be no more silence among teens just as 
myself on the topic of suicide. Back in January 2010, I was invited by 
my advisor Carol Waters to a suicide prevention summit in Anchorage. 
Tons of adults came together and talk about the issue of suicide rates 
in Alaska. This is where I started to reveal my feelings about suicide, 
at the age 15. It was a safety net from what happened years before. It 
was something I know I had to be a part of. This is where I met Barb 
Franks. The Summit brought in different organizations throughout 
Alaska, such as NANA, ANTHC, ASRC, Tlingit organizations, and Maniilaq. 
Among those organizations was a youth led organization called AASG. The 
two youth representatives were Ariel Zlatkovski and myself. I soon 
found out that a youth voice really does help out what is going on and 
that there is no stronger voice to the audience then someone young. 
From there I kept my eyes open for things that can relate to suicide 
prevention. Another door had opened.
    After five years of being silent about my feelings it felt like I 
knew what was going on. I remember getting a binder full of papers that 
I didn't quit understand, it had organizations and phone numbers for 
people related to jobs in suicide prevention. Shortly after reading 
this binder full of papers. I wrote down a list of goals one being 
``Save 100 people from committing suicide.'' I was soon to figure out 
that what was in the binder doesn't tell me how to move on in the 
future.
    When my boyfriend for the summer committed suicide, I was 16 years 
old, and from someone I knew meant a lot to me that just killed himself 
shocked me. It brought me back to the feelings of being sad, alone, and 
unsure of myself. It affected me greatly. I honestly thought that this 
guy was someone I was going to grow old with, who would always have my 
back. We were both opposites in every way. He liked Kid Kudi and I 
liked Carry Underwood, but I think those things really tied us 
together. Life just didn't seem real after he ended his life. In fact I 
remember thinking why live if I have nothing left to live for. I got in 
to some bad stuff after he committed suicide, stuff teens at the age of 
16 should even be thinking about.
    But instead of committing the same deed that he did, I decided to 
keep myself busy. I stood up and started taking action in many things 
such as suicide prevention. I attended groups such as YAHA, connections 
with ANTHC, the Statewide Suicide Prevention Council, and even bringing 
forth my ideas to my own school. These things helped me get involved 
with the suicide prevention media contest, which then kept me telling 
myself my life matters, but no one else was there to tell me that it 
matters as well. I tried to make it seem like my life has mattered I am 
here to perfect the suicide rates in Alaska, and govern myself into 
thinking that I would take control of all matters.
    I had dreams of becoming the next AASG president, after being 
secretary/treasurer this was my high school dream. I thought I was 
invisible, I mean I revolved my life around AASG. My schedule was eat, 
sleep, student council. Being on the board made me feel secure and 
important. As a 16 year old that didn't know how to deal with matters, 
I thought it was okay to keep myself so busy that I wouldn't have time 
to think about my losses. It worked up until I lost my election for 
becoming the next AASG president. By that time I hit my lowest point on 
the map, I lost my boyfriend and my life. I remember thinking what more 
is there to lose? I would go to bed re-living the moment that I lost my 
election and I would wake up thinking about my loss of my ex-boyfriend. 
It got to the point that I was showing signs of suicide. I would give 
my clothes away to people that I thought needed them more than I did. I 
would shun my activities and be unproductive in my school work; I would 
cry myself to sleep. All of a sudden I remembered the binder on 
suicide. I looked back at the book gates keeper and my list of goals I 
kept laying around my room. It was me bringing myself slowly out of the 
darkness once again.
    Yet I am sitting here talking to you about my story, it makes me 
wonder what others feel as their story. So, like I said I sat down with 
two inspirational leaders last year, and they shared with me a message, 
you need to be strong and share your story because someone who is 
listening can be helped. It was not until that moment that I knew I had 
to come out of my shell and share my story. Because of Barb and Carol, 
I listened to their stories about how suicide affected their lives. It 
also helped me realize what all those people that have committed 
suicide were missing, and that was security and knowing what they want 
to do.
    This was something that really pulled me out of the darkness; I 
realized that the age range of people committing suicide was not 
shocking anymore. Because all those people that committed suicide were 
between the ages of 14-24, the age that people reach when they soon 
realize they are on their own. When your age 18 most parents say, 
you've graduated, its time for you to move out. Well, who is going to 
care for that person who was just moved out of their house? If I was 
that person I would be confused about everything.
    You have to remember that everyone has different goals and 
inspirations and caregivers. I myself, live on the line, smile, and 
make someone's day. Just because I know that is what I lived off of 
when I was at my lowest point.
    One story that Barbara Franks told me really touched me was a group 
who founded the Alive Campaign; it was about four close friends that 
did everything together. They were the four best friends, anyone would 
ask for. Then all of a sudden one of them admitted that he was 
suicidal, because he couldn't reach his goals. This really touched me, 
because his friend made that person's goal come true. They helped their 
friend to make sure that that person knew they were friends forever and 
have someone to talk to when he become hopeless. When I heard that 
story, the first thing I said to myself was I want to be part of the 
solution and not the problem with Alaska's suicide rates. It gave me 
the vision that my life was important to a fact that I want to help 
people stand tall against suicide.
    My message to you is that you need to be the change, because one 
suicide is too much as Barb Franks shared from an Elder's perspective 
during his presentation at the Elders and Youth Conference in Anchorage 
2009. Yeah, the books tell you the signs of suicide, but they don't 
tell you how to deal with the afterwards. The power of listening is 
when this comes into hand. How are we going to have a future if we keep 
committing suicide, because if you really think about it when just one 
person commits suicide, dozens of others are affected.
    It is our time to bring someone out of the darkness and to tell 
them their life matters. It is easy to make someone's day. Tell someone 
you love them and tell them that their life has meaning. I know I feel 
bad for not telling those I had lost that I cared about them, and that 
I was there for them. Especially, my ex boyfriend. It is also easy to 
forget about one another when we are busy.
    We need to talk to one another help touch lives, change directions, 
and make other's existence positive. Those are the two things our 
future seems like it is missing, love and positive lives. I know when I 
am old I want to be able to say I helped 100 people from committing 
suicide and I also know that I am going to live to tell the story of 
how I helped them.
    Although I am not going to be doing this forever, the question is 
whose going to be doing this after? That is when we as youth leaders 
need to step up and show that we care for one another. As Carol Waters 
pointed out to me, ``Giving someone a fish is good to eat for one day, 
why not teach them how to fish so that they can eat every day.''
    So instead of waiting for this to stop itself, let's be the 
generation to teach the rest of the generations that suicide is not the 
answer.

    Senator Murkowski. Tessa, thank you for sharing your story. 
When we were in Bethel last year and had the listening session 
then and heard some young people speak, there was one 
individual who said that suicide, unfortunately, was viewed as 
normal. It was an option that was normal amongst our young 
people and that just shattered me to think that somehow or 
other that was an acceptable option and by sharing your story, 
I think you do make the point that ensuring that our young 
people know that there are other options, but we need to work 
together to make a difference.
    The testimony that we have heard from this panel has been 
very compelling and I appreciate it, some very difficult 
stories and Evon, your words, too, go straight to the heart. 
The leadership I think you see here, whether it's what Dr. Mala 
has been doing for decades now or what these young people are 
doing in committing to make a difference for their generation 
and for the generations that follow is something that we, as 
community leaders and state leaders, need to be working with 
you to support you in any way possible. The Ambassador's 
Program that you're putting together, Megan, is certainly to be 
applauded. One of the things that I have asked before, though, 
is; when we have strong young people as you come forward, how 
do we make sure that those who are not so strong, that we are 
able to reach out to them? So the Natural Helpers Program that 
you've described, where it's the young people who select who 
will be part of this leadership team is so critically 
important, because often times, it's just those over-achievers, 
the ones that get the good grades, the ones that don't get in 
trouble, the ones that aren't struggling that take on these 
leadership programs that become the head of their student 
governments and then we're not able to reach those who are 
really struggling.
    How do we make sure that we are drawing in those who need 
that help, whether it's through the Cultural Ambassador's 
Program, the Natural Helpers, whether it's what you're doing, 
Tessa, how do we reach them? How do we reach them, Evon?
    Mr. Peter.I can explain how we reach them. You know, our 
people in our communities know who's doing well, which families 
are doing well, which families aren't doing well. The 
principals and teachers in the school and the peers know which 
of their peers and students aren't doing well.
    There's clear signs of not showing up at school or not 
having adequate sleep or food and also, we have the state 
custody system and the Department of Juvenile Justice and when 
you just speak to people and you're connected at a community 
based level, you're aware of youth that are important to be 
proactively reached out to and you can develop programs to 
reach out to them.
    We have experiences in our program where we have to track 
down a parent, who may be intoxicated to get their signature to 
approve for their child to participate in some of the work we 
do and that child's aware of their situation, clearly. I mean, 
our young people are so aware. I often tell them that, you 
know, even though they're teenagers, they're young adults. 
They're not naive to what's going on in their family and 
community and so we are just honest and up front when we reach 
out and communicate with people to reach that demographic of 
young people, you know, but the Youth Leaders Program that you 
mentioned, I'm also one of the co-leaders that helps to train 
the youth in that program, along with Michelle Woods. I'm in 
the Northwest Arctic and also in the Bering Straight School 
District and I mean, I just want to agree that program is an 
extraordinary program in being able to really provide training 
and opportunities for healing for young people and they are the 
most effective leaders among their own peers.
    We say that in that program that the 9th through 12th 
graders are the elders in their school and all the young ones 
below them watch everything they do, how they act, how they 
relate to each other, whether they're looking out for each 
other and so we mirror that to the community look. So that's 
how we outreach to that population.
    Senator Murkowski. That requires that we be involved in one 
another's lives. It requires that as a community, we are 
watching, not only our kids, but our neighbor's kids and that 
as a community, we are engaged with others and more and more, 
at least in the society outside of Alaska, we don't have that 
connectedness.
    Our families are moving around. They're mobile. Even in our 
villages, you have families that have been together for a long 
time and because of economic reasons or health reasons, the 
family moves to Anchorage. You don't have that support system.
    You mentioned that you lived in Mountain View and out in 
Karluk, you know, do you have that family support system? If 
you don't have it in the villages, how can we be involved? A 
lot of times people will say, you know, ``But out, these are 
not your problems.'' How do we make sure that, as Alaskans, we 
say, ``Yes, these are our problems. This is ours to solve 
together.''
    I worry that as we lose some of the strength within our 
villages, and you've spoken to this, that it's more difficult 
to know what is happening within the families so that we can 
provide that support and reach out and I'm also going to throw 
a tough one to Megan and to Tessa, it's how we're communicating 
nowadays.
    When you were growing up with your grandparents, you 
probably didn't have the access to the TV. Now, it's not just 
TV, it's the fact that we're all glued to our smart phones, to 
Facebook. Is this helping us or is this hurting us? It's a long 
question.
    Ms. Gregory. I think it's both right now. There's a lot of 
bullying that happens on Facebook and I know a lot of people 
are working to address that, but in a way it's helping. I've 
created a Youth Ambassador, a Southeast Alaska Youth Ambassador 
Facebook page that I encourage everybody to check out to meet 
our youth ambassadors and learn more about their goals and what 
they'll be working on throughout the school year and it's just 
been a great way to connect with people and let them know what 
we're working on in Southeast and it keeps me connected with 
the youth.
    I've noticed since I developed this program, I'm not used 
to being a Director for a program, but I've noticed that I can 
always get in touch with them on Facebook. Sometimes they don't 
check their email, but they're always on Facebook and 
definitely, cell phones help, texting them. I think that's 
another thing we might consider giving the youth ambassadors is 
a cell phone to stay connected with them and communicate with 
them more efficiently because sometimes they don't have 
internet at home and they can't access their email to stay in 
touch with what we're doing. So I think that's definitely 
something to consider. Tessa, did you want to add?
    Ms. Baldwin. Yes. So I agree with Megan that having, like, 
connectedness through the Internet is really helping our 
generation because we did grow up on the Internet and it is 
really eye opening to say that, but we do connect with friends 
and Alaska is so big, that it's really hard for us to stay 
connected through anything else.
    I mean, we won't take the time to write letters or 
anything, but I stay connected to all the youth that I speak to 
through my blog and they check it every day and they see things 
that they can do to prevent suicide through my blog and I think 
that the Internet is really helping us at this point.
    Senator Murkowski. So in addition to the traditional ways 
that Dr. Mala advises, we need to be tuned to how the young 
people are communicating as well. There's no one-size solution 
here. We're going to conclude because the listening dialog that 
First Alaskans is going to host is coming up next, but I would 
offer to any of the four of you if you would like to make any 
final comments, words of wisdom, advice, request, remember that 
the testimony that you have given here will be part of the 
record for the Senate Indian Affairs Committee, so that other 
members of the Committee and their staff may know what we 
discussed today. So this is your opportunity. Dr. Mala.
    Dr. Mala. My last comment is something that we see at the 
Alaska Native Medical Center. We see lots of depressed people. 
We see people that have failed in their suicide. We've talked 
to them. We walk with them. We offer them traditional healing, 
but the thing that we can't do that we need the help of every 
Alaskan, every Native American that hears our voice is we need 
to connect them back to the community.
    I know people that give tickets to people just to get out 
of town and go back home, and you know, start your life again, 
but what we're lacking is there are people that are just 
disconnected. They may be in the Psychiatric Institute, maybe 
they're homeless, maybe they're going through a divorce. 
They're just disconnected from their community and their 
families and we need everyone to step forward and be there, be 
family for these disconnected people and there are so many of 
them and we kind of take the place of their family for a while, 
but we need to pass them on back to their community, back to 
their families and back to a new circle of friends and I need 
everyone to think that through and figure out how we, when we 
used to have lots of extended family, and I know it's one of 
the few places it's still alive now, we need to go back to that 
strength that we always had and take someone in our circle and 
help them with their healing.
    Senator Murkowski. Good words, Megan.
    Ms. Gregory. And I'd also like to touch on what Tessa 
mentioned during her testimony is--what can you do for your 
community? I encourage everybody to get involved in some way. 
It may seem small, but it makes a difference to somebody. You 
have to get involved. Volunteerism is in, and if your community 
has a suicide prevention task force, I encourage you to ask to 
join it or if your region has a task force, figure out what you 
can do to get involved and I also encourage you to go back to 
your Tribes and your corporations, encourage them to create 
youth representative positions so that students have an 
opportunity to learn what's going on and so that they can stay 
involved and encourage their peers to get involved.
    Senator Murkowski. Thank you. Good words, Evon.
    Mr. Peter.It's such a unique opportunity. I just want to 
say that my closing comment is that this process of 
assimilation and colonization that I referenced in my 
testimony, every person on Earth has been impacted by it. Some 
just went through it hundreds of years ago, instead of recently 
and we don't understand how we have embraced some of those ways 
of thinking and are perpetuating that upon each other and it's 
causing a lot of suffering in the world right now and a lot of 
devastation and division among humanity and so I think that the 
healing that I spoke to is something for all of us, all humans 
on this planet, that we need to go through that and be able to 
begin to live honestly and to seek the truth and not to be 
afraid to speak it and I want to encourage, you know, everyone 
who listens to this to continue on your path of healing and 
wellness and to have that courage and to overcome any of the 
fears that might arise in you along that path and just 
blessings to everyone. Thank you.
    Senator Murkowski. Tessa.
    Ms. Baldwin. Thank you. My closing comment is, that it's 
not hard to make someone's day, to tell them that you care 
about them and to tell them that you love them. So just take 
time out of your day to tell someone that you care about them 
because that's the first step to preventing suicide. Thank you.
    Senator Murkowski. And that is a beautiful reminder to all 
of us that we think the problems are so big and that therefore, 
the solutions must be so big and so complicated and at the end 
of the day, so much of it comes down to caring and showing 
respect for others and just love and that doesn't cost 
anything. It comes from the heart and it's a good reminder to 
us. So thank you for that. I think all of our panelists, on 
this panel and the others, deserve a round of applause. We 
usually don't do that in the Senate, but it's the right thing 
to do and with that, we conclude this Field Hearing of the 
Senate Indian Affairs Committee. Thank you all.
    [Whereupon, at 3:03 p.m., the hearing was adjourned.]
                            A P P E N D I X

  Prepared Statement of Hon. Larry Echo Hawk, Assistant Secretary for 
            Indian Affairs, U.S. Department of the Interior
    My name is Larry Echo Hawk and I am the Assistant Secretary for 
Indian Affairs in the Department of the Interior. I am pleased to 
submit a statement for the record to provide the Department's statement 
on the topic of H.O.P.E, ``Helping Our People Engage,'' which relates 
to American Indian and Alaska Native youth suicide prevention.
    American Indian and Alaska Native youth suicide is a serious 
problem in Indian Country. Data and research have shown that social 
factors such as poverty, alcoholism, gangs, and violence contribute in 
the manifestation of suicide ideation, suicidal behavior and suicide 
attempts by American Indian youth in Indian Country. See To Live To See 
the Great Day That Dawns: Preventing Suicide by American Indian and 
Alaska Native Youth and Young Adults, 2010 Publication by Substance 
Abuse and Mental Health Services Administration (SAMHSA), U.S. 
Department of Health and Human Services.
    According to the Centers for Disease Control (CDC) data on 
``Leading Causes of Death by Age Group, American Indian or Alaska 
Native Males-United States, 2006,'' suicide was the second leading 
cause of death for ages 10-34. The same 2006 data from the CDC for 
American Indian or Alaska Native females showed that suicide was the 
first leading cause of death for ages 10-14, the second leading cause 
of death for ages 15-24, and the third leading cause of death for ages 
25-34. Additionally, SAMHSA in its 2010 publication, To Live To See the 
Great Day That Dawns: Preventing Suicide by American Indian and Alaska 
Native Youth and Young Adults, states that young people account for 
forty percent (40 percent) of all suicides in Indian Country.
    As this Committee is aware, the Bureau of Indian Affairs (BIA) 
programs assist Tribal communities in developing their natural and 
social-economic infrastructures (i.e., Tribal governments, Tribal 
courts, cultural vitalization, community capabilities, etc.) or provide 
services to fill infrastructure gaps (i.e., education, law enforcement, 
social services, housing improvement, transportation, etc.). For the 
BIA, suicidal events significantly impact law enforcement personnel 
since they are the most likely first responders to suicidal events. The 
Office of Justice Services (OJS) in the BIA has partnered with numerous 
health and social service programs to assist in educating and 
presenting at schools, seminars, workshops and community events to the 
youth and the community on suicide prevention. During these events BIA 
Law Enforcement participates by setting up an educational booth 
designed to interact with families and other service agencies and 
provide information on suicide prevention. The OJS will continue to 
gather statistical data and identify youth suicide trends within Indian 
Country, as well as look for ways to expand suicide prevention training 
with other stakeholders in the future. More specifically the BIA-OJS's 
recent activity includes:

  <bullet> Providing training sessions on ``Public Safety's role in 
        Suicide Prevention'', and ``Suicide in Jails'' during the 
        Action Summit held in Scottsdale AZ.

  <bullet> Begin plans for a Suicide Prevention Training Initiative in 
        2012. The OJS has begun to collaborate with the Alaska State 
        Police to provide a specific Alaska Native Village initiative 
        to bring training out to police officers serving Alaska Native 
        Villages and communities, and the OJS is seeking partnerships 
        with BIA Social Services and SAHMSA in expanding the planned 
        2012 initiative across Indian Country. The training initiative 
        will focus on prevention and first responders' response to 
        suicide threats.

    Indian Affairs' most direct action in youth suicide prevention is 
through the Bureau of Indian Education (BIE). The BIE is providing 
technical assistance and monitoring though BIE regional School Safety 
Specialists to ensure schools are compliant with intervention 
strategies and reporting protocols to further ensure student safety. 
BIE's partnering with other federal agencies, including SAMHSA and the 
Indian Health Service (IHS) and the Department of Education, has 
enabled BIE to address the unique needs of students within these 
schools in the areas of behavioral health and suicide prevention 
efforts.
    There is a significant impact on students, teachers, administrators 
and other school staff when handling suicide ideation, gestures, 
attempts and completions within the BIE school system. The BIE has 
developed a Suicide Prevention, Early Intervention and Postvention 
Policy to promote suicide prevention in BIE schools. The policy 
mandates specific actions in all schools, dormitories and the two post-
secondary institutions; and encourages Tribally-operated schools to 
develop similar policies. These actions create a safety net for 
students who are at risk of suicide, and promotes proactive involvement 
of school personnel and communities in intervention, prevention and 
postvention activities.
    The BIA's Law Enforcement and Tribal Services programs, along with 
the BIE, continually seek ways to collaborate and to support activities 
directed at suicide prevention and services coordination. The BIE 
utilizes the Youth Risk Behavior Survey, Native American Student 
Information System (NASIS), local BIA Law Enforcement and IHS data to 
develop interventions and track trends for program implementation and 
is committed to seeking out and enacting prevention strategies while 
ensuring a safe and secure environment for our students.
    Additionally, BIE schools and dormitories use NASIS to track and 
identify specific behavior trends to develop interventions to address 
school specific behavior issues. BIE has developed two technical 
assistance training sessions that include both a basic and coaching 
level course. The basic course covers initial program development, 
policy development, best practices, and implementation, and the 
coaching level course focuses on adult wellness issues and youth 
development. The framework of the session is based on Native resiliency 
and cultural practices that support a positive school climate. More 
specifically, the BIE has completed several projects to address youth 
suicide:

  <bullet> The BIE has developed two 16-hour courses on anti-bullying 
        and suicide prevention for use within the BIE school system. 
        The BIE has trained approximately 500 staff on these basic 
        courses and approximately 200 staff on the coaching level.

  <bullet> The BIE provides 13 online programs that provide BIE staff 
        training on suicide prevention and anti-bullying. The BIE 
        currently has all 13 online sessions on DVD along with training 
        guides for the sessions. BIE's Education Line Officers (ELOs) 
        and Principals may use these sessions during orientation or 
        professional development days.

    There are also ongoing efforts to address these issues through 
partnerships with behavioral health and social services organizations 
at both the Tribal and national level with SAMSHA and the IHS. Almost a 
year ago, on November 12, 2010, myself, along with Yvette Roubideaux, 
Director of the Indian Health Service, and Pamela Hyde, Administrator 
for SAMHSA, announced to Tribal Leaders that BIA, IHS and SAMHSA would 
sponsor listening sessions to hear the needs and concerns regarding 
youth suicide in Indian Country. The purpose of the listening sessions 
were to gather Tribal input on how we can best support the goals and 
programs of Tribes for preventing suicide in Tribal communities. We 
held ten listening sessions and the listening session held in Alaska 
was the largest attended listening session with approximately 500 
attendees.
    The BIA, IHS and SAMHSA met with several Tribes from all of the BIA 
Regions during these listening sessions. We held these listening 
sessions in Indian Country to gain first-hand knowledge from the 
American Indian and Alaska Native communities to see how best we can 
all, as partners, prevent youth suicide; and to identify specific needs 
expressed by Tribal community leaders, clinicians, practitioners, and 
youth.
    The information gathered from these listening sessions was used at 
the Action Summit for Suicide Prevention held in Scottsdale, Arizona on 
August 1-4, 2011. The Action Summit was jointly sponsored and attended 
by BIA, BIA's OJS, BIE, IHS and SAMHSA to discuss what we heard during 
our joint listening sessions with Tribes, their members, and especially 
the Tribal youth. One of the goals of the Action Summit on Youth 
Suicide was to develop policy and future action items to address youth 
suicide and prevent youth suicide in Tribal communities.
    We are also jointly sponsoring, again with BIE, IHS and SAMHSA an 
Action Summit for Suicide Prevention in Alaska on October 25-27, 2011. 
We plan to continue discussing with Tribes, their members, and the 
Tribal youth our goals, develop policy and future action items to 
address and prevent youth suicide, with particular attention to our 
Alaska Native population.
    In summary, the BIA, BIE, IHS, SAMHSA, other Federal agencies, and 
Indian Tribes have and must continue to work together to address all 
aspects of suicide prevention and response. I want to thank the 
Committee for its continued concern for the wellbeing of Indian 
children, teens and young adults, especially on the subject of suicide 
prevention.
    And I want to thank Senator Murkowski for her continued leadership 
on this issue, especially for the Alaska Natives in the State of 
Alaska. I am happy to respond to questions.

                                  <all>

</pre></body></html>
